  AUDIT OF THE OFFICE ON VIOLENCE

AGAINST WOMEN GRANTS AWARDED TO

   OUR SISTER’S KEEPER COALITION

        DURANGO, COLORADO



     U.S. Department of Justice

   Office of the Inspector General

            Audit Division


    Audit Report GR-60-14-004

            March 2014



  REDACTED – FOR PUBLIC RELEASE




                14-1
  AUDIT OF THE OFFICE ON VIOLENCE AGAINST WOMEN

 GRANTS AWARDED TO OUR SISTER’S KEEPER COALITION

                DURANGO, COLORADO

                            EXECUTIVE SUMMARY1

      The U.S. Department of Justice, Office of the Inspector General (OIG),
Audit Division, has completed an audit of Grant No. 2007-IW-AX-0005
awarded by the Office on Violence Against Women (OVW) to Our Sister’s
Keeper Coalition (OSKC), as shown in Exhibit 1.

EXHIBIT 1: GRANTS AWARDED TO OUR SISTER’S KEEPER 

            COALITION

                    AWARD    PROJECT    PROJECT
  AWARD NUMBER       DATE   START DATE END DATE   AMOUNT
 2007-IW-AX-0005   09/13/07  09/01/07  08/31/09  $ 150,000
 Supplement 01     09/28/09  09/01/07  08/31/11    270,000
 Supplement 02     09/23/11  09/01/07  08/31/13    150,000
                                          Total: $570,000
Source: The Office of Justice Programs (OJP) Grant Management System (GMS)

Background

      The OVW’s Tribal Domestic Violence and Sexual Assault Coalitions
Grant Program supports the development and operation of nonprofit,
nongovernmental tribal domestic violence and sexual assault coalitions.
Grant funds may be used for activities in compliance with the following
statutory purposes: (1) increasing awareness of domestic violence and
sexual assault against American Indian and Alaska Native women;
(2) enhancing the response to violence against American Indian and Alaska
Native women at the tribal, federal, and state levels; and (3) identifying and
providing technical assistance to coalition membership and tribal
communities to enhance access to essential services to American Indian and
Alaska Native women victimized by domestic and sexual violence.

      According to the grant application, OSKC is a nonprofit tribal domestic
violence and sexual assault coalition based in Durango, Colorado. OSKC was
established in 2006 by a group of women who were members of the

       1
          The Office of the Inspector General redacted portions of Appendix IV of this report
because it contains personal health information of an individual that may be protected by
the Privacy Act of 1974, 5 U.S.C. §552(a), or may implicate other privacy rights of
individuals.

                                              i
Southern Ute Indian Tribe, and who were also survivors of domestic violence
and sexual assault. OSKC’s focus is to work to address the needs of victims
of violence against women on the Southern Ute Indian Tribe’s reservation
and in nearby La Plata County, Colorado.

Our Audit Approach

      The purpose of the audit was to determine whether costs claimed
under the grant were allowable, reasonable, and in accordance with
applicable laws, regulations, guidelines, and terms and conditions of the
grant. The objective of the audit was to review performance in the following
areas: (1) internal control environment, (2) drawdowns, (3) grant
expenditures, including personnel costs, (4) budget management and
control, (5) property management, (6) financial and progress reports,
(7) grant requirements, (8) program performance and accomplishments,
and (9) monitoring of subgrantees and contractors. We determined that
indirect costs, matching, and program income were not applicable to this
audit. We tested compliance with what we consider to be the most
important conditions of the grants. Unless otherwise stated in this report,
the criteria we audit against are contained in the OJP Financial Guide and the
award documents. 2

      We examined OSKC’s accounting records, financial and progress
reports, and operating policies and procedures and found:

   •	 OSKC commingled the OVW grant funds with funding from other
      sources and did not maintain separate accounting records for the grant
      and in some instances we could not determine if grant funds were
      used for personnel or direct costs;

   •	 OSKC had internal control deficiencies related to inadequate

      documented policies, related parties, use of cash, inadequate

      managerial oversight, and organizational sustainability;


   •	 grant funds were used for non-grant expenditures;

   •	 drawdowns were not supported by expenditures, and at the time of
      the last drawdown, cumulative drawdowns exceeded cumulative
      expenditures by $16,514;


      2
          In February 2012, the Office on Violence Against Women issued the 2012 OVW
Financial Grants Management Guide. Although the grant in this audit was bound to the
criteria held in the OJP Financial Guide, we note that any recommendations implemented
should correspond to the OVW Financial Grants Management Guide as applicable.

                                            ii
•	 drawdowns were not recorded or were not accurately recorded in the
   general ledger;

•	 personnel costs totaling $64,292 were not supported;

•	 personnel costs totaling $12,632 were unallowable, which included
   $6,696 for an unbudgeted position, and $5,936 in other unallowable
   personnel costs;

•	 documentation supporting personnel costs was inconsistent and
   inaccurate;

•	 328 direct cost transactions totaling $92,914 were not adequately
   supported;

•	 345 direct cost transactions totaling $23,046 were unallowable;

•	 OSKC documentation showed indicators of personal use of OVW grant
   funds;

•	 OSKC documentation indicated unusual expenditures with OVW grant
   funds;

•	 contractor documentation was inconsistent and incomplete;

•	 OSKC documentation did not provide adequate information for budget
   analysis;

•	 of the four most recent financial reports, three were submitted late;

•	 none of the four most recently submitted financial reports were
   accurate;

•	 of the four most recent progress reports, three were submitted late
   and the most recent was not submitted;

•	 none of the two most recently submitted progress reports were
   verifiable by source documentation;

•	 OSKC’s grant program performance was not completely verifiable;

•	 OSKC overstated metrics used in grant performance evaluation;

•	 goals and objectives of the grant were not consistently met; and,

                                   iii
  •	 OSKC was unable to adequately support their claims of achievement
     and we found indications that OSKC would be unable to meet current
     or future objectives of the grant, and;

  •	 some grant special conditions were not met.

      This report contains 23 findings and 19 recommendations, which are
detailed in the Findings and Recommendations section of the report. Our
audit objective, scope, and methodology are discussed in Appendix I.




                                    iv
                                    Table of Contents


INTRODUCTION ................................................................................ 1

  Background.......................................................................................1

  Our Audit Approach............................................................................2

FINDINGS AND RECOMMENDATIONS................................................ 3

  Prior Audits .......................................................................................3

  Internal Control Environment ..............................................................3

  Drawdowns .......................................................................................5

  Grant Expenditures ............................................................................5

    Personnel and Fringe Benefits...........................................................6

    Other Direct Costs...........................................................................9

    Contractors/Consultants ................................................................ 11

  Budget Management and Control ....................................................... 12

  Grant Reporting............................................................................... 13

    Financial Reporting........................................................................ 13

    Categorical Assistance Progress Reports .......................................... 14

  Program Performance and Accomplishments ....................................... 16

    Sustainability................................................................................ 16

    Goals and Objectives ..................................................................... 17

    Performance Issues ....................................................................... 18

  Conclusion ...................................................................................... 19

  Recommendations ........................................................................... 21

STATEMENT ON INTERNAL CONTROLS............................................ 23

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS...... 24

APPENDIX I - OBJECTIVE, SCOPE, AND METHODOLOGY ................. 25

APPENDIX II - SCHEDULE OF DOLLAR-RELATED FINDINGS............ 27

APPENDIX III - SUMMARY OF UNALLOWABLE AND UNSUPPORTED 

EXPENDITURES............................................................................... 28

APPENDIX IV - OUR SISTER’S KEEPER COALITION RESPONSE ....... 51

APPENDIX V - OFFICE ON VIOLENCE AGAINST WOMEN RESPONSE 64

APPENDIX VI - OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND

SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT .......... 68

  AUDIT OF THE OFFICE ON VIOLENCE AGAINST WOMEN

 GRANTS AWARDED TO OUR SISTER’S KEEPER COALITION

                DURANGO, COLORADO

                                 INTRODUCTION 1

      The U.S. Department of Justice, Office of the Inspector General (OIG),
Audit Division, has completed an audit of Grant No. 2007-IW-AX-0005
awarded by the Office on Violence Against Women (OVW) to Our Sister’s
Keeper Coalition (OSKC), as shown in Exhibit 1.

EXHIBIT 1: GRANTS AWARDED TO OUR SISTER’S KEEPER 

            COALITION

                    AWARD    PROJECT    PROJECT
   AWARD NUMBER      DATE   START DATE END DATE   AMOUNT
 2007-IW-AX-0005   09/13/07  09/01/07  08/31/09  $ 150,000
 Supplement 01     09/28/09  09/01/07  08/31/11    270,000
 Supplement 02     09/23/11  09/01/07  08/31/13    150,000
                                          Total: $570,000
Source: The Office of Justice Programs (OJP) Grants Management System (GMS)

Background

       Created in 1995, the OVW administers financial and technical
assistance to communities across the country that are developing programs,
policies, and practices aimed at ending domestic violence, dating violence,
sexual assault, and stalking. The OVW’s stated mission is to provide federal
leadership in developing the nation’s capacity to reduce violence against
women, and administer justice for and strengthen services to victims.

      The OVW’s Tribal Domestic Violence and Sexual Assault Coalitions
Grant Program supports the development and operation of nonprofit,
nongovernmental tribal domestic violence and sexual assault coalitions.
Grant funds may be used for activities in compliance with the following
statutory purposes: (1) increasing awareness of domestic violence and
sexual assault against American Indian and Alaska Native women;
(2) enhancing the response to violence against American Indian and Alaska
Native women at the tribal, federal, and state levels; and (3) identifying and
providing technical assistance to coalition membership and tribal


       1
          The Office of the Inspector General redacted portions of Appendix IV of this report
because it contains personal health information of an individual that may be protected by
the Privacy Act of 1974, 5 U.S.C. §552(a), or may implicate other privacy rights of
individuals.

                                              1

communities to enhance access to essential services to American Indian and
Alaska Native women victimized by domestic and sexual violence.

      According to the grant award, OSKC is a nonprofit tribal domestic
violence and sexual assault coalition based in Durango, Colorado. OSKC was
established in 2006 by a group of women who were members of the
Southern Ute Indian Tribe, and who were also survivors of domestic violence
and sexual assault. OSKC’s focus is to address the needs of victims of
violence against women on the Southern Ute Indian Tribe’s reservation and
in nearby La Plata County, Colorado.

Our Audit Approach

      We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audit against are contained in the OJP Financial Guide and grant award
documents. We tested OSKC’s:

  •	 internal control environment to determine whether the internal
     controls in place for the processing and payment of funds were
     adequate to safeguard grant funds and ensure compliance with the
     terms and conditions of the grant;

  •	 grant drawdowns to determine whether grant drawdowns were
     adequately supported and if OSKC was managing grant receipts in
     accordance with federal requirements;

  •	 grant expenditures to determine the accuracy and allowability of
     costs charged to the grant;

  •	 budget management and control to determine OSKC’s compliance
     with the costs approved in the grant budget;

  •	 Federal Financial Reports (FFRs) and Progress Reports to
     determine if the required FFRs and Progress Reports were submitted in
     a timely manner and accurately reflect grant activity, and;

  •	 grant objectives and accomplishments to determine whether
     OSKC is capable of meeting the grant objectives.

     The findings and recommendations are detailed in the Findings and
Recommendations section of this report. Our audit objective, scope, and
methodology appear in Appendix I.




                                     2

               FINDINGS AND RECOMMENDATIONS

     We found that, OSKC did not comply with essential grant
     conditions in the areas of internal controls, grant drawdowns,
     grant expenditures, budget management and control, grant
     reporting, and grant goals and accomplishments. Most
     significantly, OSKC commingled the OVW grant funds with
     funding from other sources, did not consistently identify funding
     sources for expenditures, made drawdowns in excess of grant
     expenditures, charged unallowable and unsupported costs to the
     grant, did not submit accurate or timely grant reports, and did
     not meet grant goals and objectives. Based on our audit results,
     we make 5 recommendations to address dollar-related findings
     and 14 recommendations to improve the management of DOJ
     grants.

Prior Audits

      The Office of Management and Budget (OMB) Circular A-133 requires
that non-federal entities that expend $500,000 or more per year in federal
awards have a single audit performed annually. We determined that OSKC
was not required to submit Single Audits during the scope of our audit, as
federal expenditures were less than $500,000 in each year.

Internal Control Environment

     We reviewed OSKC’s internal control environment, including
procurement, receiving, and payment procedures. We also assessed
managerial oversight by OSKC’s Board of Directors.

      We found that OSKC commingled OVW grant funds with funding from
other sources and did not maintain separate accounting records for the
grant. Further, for expenditures totaling $85,937, the source of funding
used by OSKC was not accurately identified in the accounting records and
OSKC was unable to identify what funds were used to pay for the
transactions based on supporting documentation. The OJP Financial Guide
prohibits commingling of grant funds with other funding sources; accounting
records must accurately reflect grant expenditures and identify grant
expenditures separately from other funding sources. We recommend the
OVW coordinate with OSKC to ensure that grant expenditures are identified
separately from other funding sources.

       We also found that OSKC was experiencing significant financial
difficulties during the scope of our audit. In April 2012, OVW froze OSKC’s
grant funding due to excessive drawdowns that OSKC officials stated were


                                      3

made to reimburse past expenditures. At that time, OSKC had drawn down
$73,698, which was about half of the Supplement 02 funding, in the first
quarter of the 2-year project period.

      OSKC provided financial policies and procedures for purchasing and
check writing. OSKC did not have documented policies for payroll or
competitive procurement procedures. OSKC officials provided a draft
amendment to the financial policy that would require two signatures for any
check written over $500; however, that amendment also allowed ATM
withdrawals using OSKC’s debit card.

      We identified numerous internal control deficiencies with OSKC
procedures and operations, including lack of segregation of duties, related
parties in leadership positions, use of cash to pay grant expenditures,
potential for grant expenditures to suspended or debarred parties, and
organizational financial difficulties. Specifically, we found:

   •	 OSKC’s former director resigned in April 2012, and OSKC has been
      managed by an acting director since that time. Due to lack of
      knowledge of OSKC’s past operations, OSKC’s acting director struggled
      to provide information and documentation to the OIG throughout this
      audit.

   •	 OSKC frequently had related parties in leadership positions. OSKC’s
      acting director and former director were sisters. The board Treasurer’s
      daughter was also a board member, and another board member was
      the former director’s ex-husband.

   •	 OSKC’s former and acting directors used ATM withdrawals of cash to
      pay grant expenditures.

   •	 OSKC’s financial management policies required consulting agreements
      or engagement letters and W-9 forms before any work is done, but did
      not require specific consultant monitoring procedures.

   •	 OSKC had no segregation of duties. At the time of our audit, the

      acting director was the only employee. 


       We consider OSKC’s documented fiscal policies and guidelines to be
inadequate; OSKC’s financial management policies did not adequately
address internal controls and permitted activities related to weak internal
controls. We consider oversight by OSKC’s Board of Directors to be
inadequate; OSKC’s directors did not meet regularly or consistently, board
members included related parties, and board leadership did not appear to
have backgrounds consistent with the skills and knowledge required for their
positions. We recommend that the OVW coordinate with OSKC to ensure

                                      4

that financial management policies are adequately documented and
followed, and are in accordance with grant management guidelines.

Drawdowns

      We determined that the grant awarded to OSKC was reimbursement
based, and therefore subject to the OJP Financial Guide requirement that
drawdown requests be timed to ensure that federal cash on hand is the
minimum needed for disbursements or reimbursements to be made
immediately or within the next 10 days. OSKC officials stated that OVW
grant funds might be spent on non-grant expenditures and later reimbursed
from other funding sources. We recommend that the OVW coordinate with
OSKC to ensure that OVW grant funds are used only for grant expenditures.

       We analyzed grant drawdowns and expenditures to determine if the
total actual costs recorded in the accounting records were equal to, or in
excess of, the cumulative drawdowns as reported by the OVW. We identified
55 drawdowns and determined the first and third drawdowns cumulatively
exceeded expenditures by $793 and $3,636, and the 11 most recent
drawdowns cumulatively exceeded expenditures from $3,183 to $17,502. At
the time of the most recent drawdown on March 6, 2012, OSKC’s cumulative
drawdowns exceeded grant expenditures by $16,514. Drawdowns should
accurately reflect expenditures for the draw period; therefore, we consider
the cumulative overdrawn amount of $16,514 to be unsupported. We
recommend the OVW resolve the $16,514 in unsupported excess
drawdowns.

      We also identified issues with accuracy of drawdowns recorded by
OSKC in its general ledger. The February 14, 2008, drawdown of $5,000
was not recorded in the general ledger. The January 4, 2011, drawdown of
$8,932 was recorded in the general ledger as January 6, 2010. OSKC made
four drawdowns from August 1, 2011, to October 7, 2011, totaling $22,337;
however, OSKC’s general ledger indicated seven OVW grant deposits totaling
$19,686 during that period; none of the deposits matched any of the
drawdowns and the total amounts differed by $1,672. According to the OJP
Financial Guide, drawdowns should be recorded in accounting records
accurately and timely. We recommend the OVW coordinate with OSKC to
ensure that grant accounting records are complete, accurate, and supported
by documentation.

Grant Expenditures

      According to the OJP Financial Guide, a grantee is responsible for
establishing and maintaining an adequate system of accounting, financial
records, and internal controls to accurately account for the funds awarded to
them. An acceptable and adequate system must: (1) present and classify

                                      5

projected historical costs of the grant as required for budgetary and
evaluation purposes; (2) provide costs and property control to ensure
optimal use of funds; (3) control funds and other resources to assure that
the expenditure of funds and use of property conform to any general or
special conditions that apply to the recipient; (4) meet the prescribed
requirements for periodic financial reporting of operations; and (5) provide
financial data for planning, control, measurement, and evaluation of direct
and indirect costs. We found that OSKC commingled OVW grant funds with
funding from other sources and did not maintain separate accounting
records for the grant. OSKC officials initially provided us with a general
ledger for all commingled expenditures that did not identify funding sources.
OSKC worked with an accounting firm to identify funding sources for
individual transactions and provided us with a general ledger that identified
transactions as funded by the OVW grant, funded by other funding sources,
or allocated in part to the OVW grant and in part to other funding sources;
however, the shared allocations did not indicate how much was allocated to
the OVW grant.

       OSKC officials identified 1,330 personnel and direct cost transactions
totaling $508,517 in the general ledger as OVW grant-funded. We selected
696 transactions for testing, totaling $200,907. Based on our review, we
identified 57 unallowable and unsupported personnel costs transactions,
totaling $76,924, and 673 unallowable and unsupported other direct costs
transactions, totaling $115,960, as discussed in the following sections of the
report. A detailed listing of unsupported and unallowable questioned costs is
included in Appendix III of this report. We were unable to determine the
amount allocated to the grant for two other direct costs transactions,
totaling $1,471, and six personnel costs transactions, totaling $7,962, and
we were therefore unable to test those transactions.

Personnel and Fringe Benefits

      During transaction testing, our initial sample included 14 personnel
transactions. Based on our review, we identified 14 unsupported
transactions with questioned costs of $46,607 and 1 unallowable transaction
with questioned costs of $192.

      In addition to our findings from transaction testing, we also reviewed
grant transactions from the personnel and fringe budget categories for two
pay periods in 2011. We identified issues with documentation for those
periods and expanded testing to include all of 2011. We identified numerous
issues with support and allowability of personnel expenditures. Specifically,
we identified 21 additional unsupported personnel expenditures totaling




                                      6

$17,685, as well as $12,440 in additional unallowable personnel
expenditures. 4 Specifically, we found that:

   •	 OSKC records indicated 106 personnel transactions for five employees
      during 2011. However, we identified 20 personnel transactions that
      were not listed in the general ledger and for 41 personnel transactions,
      the general ledger showed that $46,446 was commingled between the
      OVW grant and other programs, and we could not determine how
      much of that amount was funded by the OVW grant. We were only
      able to analyze costs for 47 personnel transactions where OSKC
      identified specific amounts charged to the grant. Based on our
      analysis, we identified 21 personnel expenditures with inadequate
      supporting documentation, totaling $17,685.

   •	 One employee, Education/Outreach Coordinator, was charged to the
      grant, but was not included in the grant budget. The general ledger
      identified $6,696 in personnel expenditures specified as OVW grant
      funded for this employee. Because the Education/Outreach
      Coordinator was an unbudgeted position, we question expenditures
      totaling $6,696 related to this employee as unallowable.

   •	 OSKC provided a document with handwritten notes stating that OSKC
      has a bimonthly payroll policy, for 24 pay periods per year. However,
      according to OSKC pay stubs, OSKC's former director received 30
      paychecks for 2011. According to OSKC's general ledger, the former
      director received 12 paychecks on February 8, 2012. Previous to that
      date, the former director received a paycheck on October 6, 2011; the
      former director also received a paycheck on February 10, 2012. OSKC
      stated the 12 paychecks occurred due to a delay in drawing down
      funds caused by OVW’s budget process. At the time that the former
      director received 12 paychecks, only 8 pay periods had passed. We
      concluded that the former director was overpaid by four pay periods
      on February 8, 2012, and we question the excess amount of $4,192
      charged to the grant for the four most recent transactions as
      unallowable, consisting of $3,105 in wages and $1,088 in fringe
      benefits. 5



       4
         We reduced the total dollar-related findings detailed in Appendix II by the
duplicated questioned personnel costs that were questioned as both unsupported and
unallowable under grant guidelines. As a result, the total questioned costs figure excludes
duplicate questioned personnel costs.
       5
        Throughout the report, differences in total amounts are due to rounding, in that
the sum of individual numbers prior to rounding may differ from the sum of the individual
numbers rounded.

                                             7

  •	 For 4 employees, grant documentation indicated 10 instances of more
     than 1 paycheck in a pay period, including 6 duplicated paychecks paid
     to the former director. Two of these duplicated paychecks were
     identified by OSKC as charged specifically to the grant for $1,552,
     which we question as unallowable. Other duplicated and excess
     paychecks were identified as partially funded by the OVW grant but did
     not provide specific amounts; as a result, we could not determine what
     amount was paid using grant funds.

      We also identified a number of management improvement findings
related to OSKC personnel documentation, including:

  •	 One paycheck of $1,956 dated February 23, 2011, was recorded in the
     general ledger as a $50 victim assistance payment to a different
     individual on May 25, 2010.

  •	 Three paycheck numbers were duplicated on pay stubs (the same
     check number was issued twice) and six paycheck numbers were
     duplicated in the general ledger (the same check number was recorded
     twice).

  •	 Two pay stubs were marked "void" for $0, but were recorded in the
     general ledger as $1,457 and $1,012.

  •	 One paycheck was noted "void" for $0 in the general ledger, but the
     pay stub indicated $1,350 was paid.

  •	 OSKC provided 38 total timesheets; of those, 18 were not properly
     approved (no supervisor signature) and one was self-approved (by
     the former director).

  •	 OSKC provided nine timesheets for one employee by email on
     February 10, 2013, and none of the timesheets matched the four
     monthly timesheets for that employee and time period reviewed
     during our fieldwork. The timesheets showed different position titles,
     lengths, dates, and approvals.

  •	 The former director signed 27 of 30 paychecks to herself.

  •	 For 4 employees, pay periods ranged from 1 to 17 days in length; 11
     paychecks for those employees were for periods of 7 days or less, and
     9 of those paychecks were for periods of 1 day.

  •	 For four employees, paycheck amounts were mostly consistent;
     however, for the former director, biweekly paychecks varied from $958
     to $2,192.

                                     8

   •	 OSKC provided one paycheck dated October 6, 2011, with a hand
      written note stating the check was for November 7, 2011, payroll.

   •	 Total fringe benefits for 2011 were budgeted at 14.2 percent. We
      were unable to verify fringe benefit amounts for 14 of 71 paychecks,
      or 19.7 percent of the paychecks reviewed. For the 57 paychecks in
      the general ledger that identified fringe benefit payments, we
      determined fringe benefit percentages for 2011 averaged 9.5 percent,
      and ranged from 7.7 percent to 10.4 percent. Fringe benefit
      percentages did not exceed the budgeted percentage for 2011.

     Questioned transactions are listed in detail in Appendix III. We
recommend that the OVW remedy the $64,292 in unsupported personnel
expenditures and $12,632 in unallowable personnel expenditures.

Other Direct Costs

       We selected 669 other direct cost transactions for review, and
identified 328 unsupported transactions totaling $92,914 and 345
unallowable transactions totaling $23,046, including payments for board
stipends and meeting refreshments and food. 6 Unallowable transactions also
included victim assistance payments that did not identify a domestic violence
or sexual assault victim nexus, or:

   •	 occurred during unbudgeted periods;

   •	 were made to employees, board members, and their families;

   •	 purchased gifts for inmates and paid for travel to visit an out-of-state
      inmate;

   •	 paid for lodging at a ski lodge;

   •	 were made to multiple members of the same family on the same day;
      and,

   •	 were made to an individual who stated they were not eligible for

      government assistance because they were not a U.S. citizen.


      OSKC officials stated OSKC commingled funds and expenditures from
multiple funding sources. OSKC’s general ledger identified 129 different

      6
          We reduced the total dollar-related findings by the duplicated questioned direct
costs that were questioned as both unsupported and unallowable under grant guidelines. As
a result, the total questioned costs figure excludes duplicate questioned direct costs.

                                            9

funding sources and combinations of funding sources, but did not
consistently identify specific funding sources for transactions. The general
ledger identified 74 expenditures totaling $85,937 as partially funded by the
OVW grant; for those expenditures, OSKC could not provide specific
amounts charged to the grant.

     OSKC grant documentation identified indicators of personal use
of OSKC funds, including the following OVW grant funded transactions that
were questioned:

  •	 $54 was paid for lodging at Wolf Creek Ski Lodge, which is located
     near a ski area 2 hours from OSKC.

  •	 $87 was reimbursed to the OVW grant for purchase of shoes. The
     original expenditure was noted in the general ledger as an emergency
     assistance expenditure for children's footwear and was identified by
     OSKC as funded by the OVW grant.

  •	 OSKC’s former director made 10 reimbursements to OSKC on June 14,
     2012, totaling $441. The original expenditures occurred from
     November 23, 2011, to May 14, 2012, and were identified in the
     general ledger as assistance to individuals; payees included Home
     Depot, LaQuinta Inn, Basin Coop, Shell Oil, Mesa Market, JC Penney,
     Giant, Kentucky Fried Chicken, Sonic, McDonald's, Starbucks, United
     Airlines, and a car wash. Four of the expenditures were identified by
     OSKC as funded by the OVW grant; for two expenditures, the debit
     entry was charged to the OVW grant and the credit entry was charged
     to "Private Contributions." The nine remaining expenditures were
     identified by OSKC as being funded solely by private contributions. All
     10 reimbursements occurred 2 months after the former director’s
     resignation date. The repayments were not allocated to the OVW
     grant.

  •	 OSKC’s former director and a related party traveled from Durango,
     Colorado, to Golden, Colorado, on a holiday weekend in July 2010, but
     documentation did not indicate the purpose for the travel. Flights
     were charged to the grant for the two individuals, traveling from
     Durango to Denver on Saturday, July 3, 2010, and returning to
     Durango on Sunday, July 4, 2010. However, documentation also
     indicated that the two individuals were in Denver from July 4, 2010, to
     July 10, 2010. A receipt indicated a stay at a south Denver hotel from
     July 4, 2010, to July 5, 2010, which was charged to the grant, and a
     car rental reservation was made at the Denver airport for July 5, 2010,
     to July 10, 2010. The general ledger indicated that a car rental
     expenditure was charged to the grant on July 6, 2010.


                                     10

      Documentation in OSKC’s grant files indicated unusual expenditures
that were recorded inaccurately or were not recorded in the general ledger,
including:

  •	 A $500 payroll advance was paid to the former director on
     November 3, 2011, but we could not locate the expenditure in OSKC’s
     general ledger.

  •	 OSKC employees received $2,655 in pay advances.

  •	 Loans to OSKC from employees to pay grant expenditures were
     reimbursed later. However, employee loans to OSKC were recorded as
     private contributions.

  •	 OSKC paid $10,076 with OVW grant funds to employees and other
     parties as reimbursements for loans, although there were no
     related original loans to OSKC identifiable in the general ledger.

  •	 A deposit slip for $808 was dated November 16, 2011, with a
     handwritten note stating fundraiser income and "all contributions went
     back to DOJ acct." The donation was recorded in OSKC’s general
     ledger as "Private Contributions" and was not credited back to the
     OVW grant.

     Questioned transactions are listed in detail in Appendix III. We
recommend that the OVW remedy the $92,914 in unsupported direct cost
expenditures and $23,046 in unallowable direct cost expenditures.

Contractors/Consultants

       OSKC’s financial management policies included requirements to obtain
consulting agreements or engagement letters and W-9 forms; the policies
did not address monitoring of consultants or contractors. OSKC's
consultants and contractors were to provide specific deliverables for the
benefit of OSKC, such as phone service, business services, office space,
trainings, and specialized victim assistance support, and we determined
performance was consistently evaluated by OSKC as the recipient of those
services.

      However, we noted documentation issues with contracted consultants
during transaction testing. OSKC staff wages were recorded in the general
ledger as contractor expenses. OSKC could not provide a contract for 13
transactions related to 8 contractors. We found one contract that was
signed by the contractor but was not signed by OSKC officials and another
contract that was not signed by the contractor. We previously questioned
contractor expenditures with inadequate documentation during direct cost

                                     11

transaction testing; we recommend the OVW coordinate with OSKC to
ensure that contracts are maintained and signed by all parties.

Budget Management and Control

      OSKC received an approved budget for the grant, which included
Personnel, Fringe, Travel, Equipment, Supplies, Contractual, and Other
budget categories. If changes are subsequently made, the OJP Financial
Guide requires that prior approval from the granting agency be obtained if
modifications will result in a change that exceeds 10 percent of the total
award amount. We used the approved budget to determine the approved
budgeted amounts by category.

       The most recent budget, for Supplement 02, which included the
budgets for the original grant and Supplement 01, was approved by the
OVW. OSKC’s acting director stated that the former director created the
budgets with assistance from volunteers; the acting director did not appear
to be involved in budget creation. OSKC officials stated budgets are
monitored, but could not provide documentation of budget monitoring
activities. OSKC board leadership stated they are not involved in financial
functions, other than what they are shown by the director at board
meetings. The board’s Treasurer also stated a lack of understanding of
budgets or accounting.

       As noted in the Internal Control Environment section of this report,
OSKC commingled the OVW grant funds with funding from other sources and
did not maintain separate accounting records for the grant. OSKC officials
worked with an accounting firm to identify funding sources for individual
transactions and provided us with a general ledger that identified
transactions as funded by the OVW grant, funded by other funding sources,
or allocated in part to the OVW grant and in part to other funding sources;
however, the shared allocations generally did not indicate how much was
allocated to the OVW grant. Transactions that identified specific dollar
amounts traceable to the OVW grant funding totaled $508,517, but we could
only determine budget categories for $486,633 of those transactions. For
the $486,633 in transactions that identified budget categories, we
determined OSKC was cumulatively under budget. However, we were
unable to confirm budget categories for $21,884 in transactions that were
identified as OVW grant-funded but did not clearly indicate a budget
category, as well as $85,937 in transactions that were identified by OSKC as
being partially funded by the OVW grant but did not identify the amounts
allocated to the grant. Due to the transactions for which the amount
allocated to the grant or the budget category could not be determined, we
were unable to definitively conclude whether OSKC was under or over
budget by category. We recommend the OVW coordinate with OSKC to
ensure that grant budgets are adequately documented and monitored.

                                     12

Grant Reporting

      We reviewed the Financial Reports and Categorical Assistance Progress
Reports (Progress Reports) to determine if the required reports had been
submitted accurately, and within the timeframes required by the OJP
Financial Guide.

Financial Reporting

      For financial reporting prior to October 1, 2009, the OJP Financial
Guide states that Financial Status Reports (FSRs) should be submitted online
no later than 45 days after the last day of each quarter. The OJP Financial
Guide also states that effective for the quarter beginning October 1, 2009,
grant recipients must report expenditures online using the Federal Financial
Report (FFR) no later than 30 days after the end of each calendar quarter. 7
We reviewed the four most recent FFRs for the grant, and determined one
FFR was submitted timely and the other three FFRs were submitted 3, 31,
and 37 days late; the detailed analysis is in Exhibit 2.

EXHIBIT 2: FEDERAL FINANCIAL REPORT HISTORY
                          REPORT PERIOD
    REPORT NO.           FROM - TO DATES         DUE DATE    DATE SUBMITTED   DAYS LATE
        17             07/01/11 – 09/30/11       10/30/11       11/30/11         31
        18             10/01/11 – 12/31/11       01/30/12       01/04/12         0
        19             01/01/12 – 03/31/12       04/30/12       06/06/12         37
        20             04/01/12 – 06/30/12       07/30/12       08/02/12         3
Source: OJP GMS

      We also reviewed FFRs for accuracy. According to the OJP Financial
Guide, recipients shall report the actual expenditures and unliquidated
obligations incurred for the reporting period on each financial report. Also,
award recipients should report program outlays and revenue on a cash or
accrual basis in accordance with their accounting system. We reviewed the
four most recently submitted FFRs and determined none of the periodic or
cumulative expenditures reported were accurate, as shown in Exhibit 3.




      7
          OJP changed from using SF-269 Financial Status Reports (FSRs) to SF-425 Federal
Financial Reports (FFRs), beginning October 1, 2009. For consistency purposes, we use the
term “FFR” throughout this audit when discussing any financial reports submitted by Our
Sister’s Keeper Coalition for the audited grant.

                                           13

EXHIBIT 3: FEDERAL FINANCIAL REPORT EXPENDITURE ACCURACY

                                                      CUMULATIVE       CUMULATIVE
                                                        GRANT          DIFFERENCE
                                      CUMULATIVE     EXPENDITURES        BETWEEN
                                        GRANT            PER            REPORTS &
 REPORT           REPORT PERIOD      EXPENDITURES     ACCOUNTING       ACCOUNTING
  NO.            FROM - TO DATES      PER REPORT       RECORDS           RECORDS
   17       07/01/11 – 09/30/11         $378,589          $425,160     $ (46,571)
   18       10/01/11 – 12/31/11          379,589           435,296      (55,706)
   19       01/01/12 – 03/31/12          443,287           455,879      (12,592)
   20       04/01/12 – 06/30/12          443,287           462,797      (19,510)
Source: OJP GMS and OSKC

       As shown above, we determined that FFRs were not accurate for any
of the four reporting periods included in our audit, and were submitted late
for three of the four periods. We recommend that the OVW coordinate with
OSKC to ensure that FFRs are submitted timely and accurately.

Categorical Assistance Progress Reports

      According to the OJP Financial Guide, Categorical Assistance Progress
Reports are due semiannually on January 30 and July 30 for the life of the
award. To verify the timely submission of Progress Reports, we reviewed
the last four Progress Reports submitted for the grant to determine if the
reports had been submitted as required by the OJP Financial Guide. As
shown in Exhibit 4, we determined that the most recent Progress Report was
not submitted at the time of this audit and the other three Progress Reports
were late by 1, 23, and 134 days, as shown in Exhibit 4. We recommend
that the OVW coordinate with OSKC to ensure that Progress Reports are
submitted timely.

EXHIBIT 4:	 CATEGORICAL ASSISTANCE PROGRESS REPORT
            HISTORY
                          REPORT PERIOD
    REPORT NO.           FROM - TO DATES       DUE DATE    DATE SUBMITTED   DAYS LATE
        7              07/01/10 – 12/31/10     01/30/11       06/13/11        134
        8              01/01/11 – 06/30/11     07/30/11       08/22/11         23
        9              07/01/11 – 12/31/11     01/30/12       01/31/12         1
        10             01/01/12 – 06/30/12     07/30/12     Not submitted     N/A
Source: OJP GMS

        We also reviewed Progress Reports for accuracy. According to the OJP
Financial Guide, the funding recipient agrees to collect data appropriate for
facilitating reporting requirements established by Public Law 103-62 for the
Government Performance and Results Act. The funding recipient will ensure



                                         14

that valid and auditable source documentation is available to support all data
collected for each performance measure specified in the program solicitation.

      OSKC officials stated that the former director had completed all
Progress Reports in the past, but since April 2012 the acting director was
responsible for completing the reports. OSKC officials stated that Progress
Reports were completed using a variety of data sources, including hotline
intake forms and monthly logs, victim assistance logs and reports, training
evaluation forms, and client files.

      We reviewed the two most recently submitted Progress Reports, which
reported on activities for calendar year 2011.

      We were unable to verify quantifiable information noted in the two
most recently submitted Progress Reports. OSKC officials stated that they
did not consistently use registration forms and rosters, and that estimates
were used to determine program attendance. Specifically, we identified the
following issues with Progress Report supporting documentation and source
data:

   •	   OSKC staff reports contained duplicate information, which can lead to
        inaccurate data reporting.

   •	   Client intake forms were used to register OSKC staff, board members,
        and volunteers for internal trainings.

   •	   Monthly reports from a consultant contained the exact same

        performance information for July, August, and September 2011. 


   •	   Reports from training and educational programs did not consistently
        include agendas or rosters of attendees.

   •	   In its Progress Report metrics, OSKC counted creation of the Progress
        Report as a report-writing activity; creation of the Progress Report
        should not have been reported as an activity, as reporting is a required
        administrative function for the grant and is not an activity related to
        the grant goals and objectives.

   •	   OSKC stated in the Progress Reports that two websites were active,
        oursisterskeeper.org and oskcprevention.org, and that the websites
        had 3,500 page views for each reporting period. At the time of our
        audit, neither website was active; OSKC officials stated that the
        website was down for redesign and Facebook was primarily being
        used. We searched for website visitor data for both sites on a website
        analytics site, which indicated that neither of OSKC's


                                       15

      identified websites had ever had any site visitors. OSKC was unable to
      provide us with documentation to support the reported website traffic.

   •	 OSKC stated for each reporting period that YouTube videos were
      developed, which had 4,000 total views. However, each Progress
      Report stated the same information related to the number of views,
      indicating either that the information was copied from one report to
      the other, or that there were no views for the second half of 2011.
      OSKC officials stated that one video had been removed from YouTube
      and provided a link to the second video, which was a narrative of
      OSKC's mission and involvement within Southwest Colorado
      communities and the effects of domestic violence and sexual assault.
      The video’s YouTube page indicated 144 total views of the video from
      May 20, 2009, through February 26, 2013.

      We recommend that the OVW coordinate with OSKC to ensure that
Progress Reports are supported by verifiable source documentation.

Program Performance and Accomplishments

      To assess program performance and accomplishments, we reviewed
the grant documentation, and interviewed OSKC officials, to determine the
goals and objectives of the program and whether those goals and objectives
have been or are being implemented. We noted goals and objectives stated
in the application for Supplement 01 were repeated in the application for
Supplement 02, indicating that not all goals and objectives intended to be
completed during the grant period for Supplement 01 were completed.

Sustainability

       OSKC officials stated issues related to organizational sustainability.
OVW froze OSKC’s grant funds in March 2012 because of excessive
drawdowns. In January 2013, OSKC officials informed us the organization
was closing, the Board of Directors had resigned, and OSKC planned to
return the remaining grant funds to OVW; OSKC officials later stated they
intended to continue operations with a Board of Directors to retain the
organization’s 501(c)(3) status, but still planned to return the grant funds to
OVW. OSKC officials stated all furniture, equipment, and supplies had been
moved to storage, except for a one-room office retained for purposes of
responding to this audit. During our audit, OSKC's acting director began
working a second job and became unable to perform grant functions on a
full-time basis.




                                      16

Goals and Objectives

       The mission of the OVW Tribal Domestic Violence and Sexual Assault
Coalitions Grant Program is to support the development and operation of
nonprofit, nongovernmental tribal domestic violence and sexual assault
coalitions. Grant funds can be used for activities in compliance with:
(1) increasing awareness of domestic violence and sexual assault against
American Indian and Alaska Native women; (2) enhancing the response to
violence against American Indian and Alaska Native women at the tribal,
federal, and state levels; and (3) identifying and providing technical
assistance to coalition membership and tribal communities to enhance
access to essential services to American Indian and Alaska Native women
victimized by domestic and sexual violence.

      OSKC was unable to provide us with a list of events or programs for
the grant period. We selected calendar year 2011 for review of all
documentation related to grant performance. We requested documentation
related to grant-funded programs and events for that period and received
several binders of program documentation. Monthly staff reports indicated
that other programs had occurred that were not documented. Events were
not identified as funded by the OVW grant or by other funding sources. In
addition, monthly reports also discussed events that were funded by other
sources.

      According to OSKC officials, timelines were used to monitor grant
progress. We requested the timelines and were then told OSKC used intake
forms, a logic model, a to-do-list, and tracking logs to monitor grant
progress. We reviewed those documents and determined none of them
monitored performance of the grant to the activities stated in the grant
application. OSKC did not provide us with any other documentation used to
track completion of grant objectives.

       OSKC provided us with two lists of coalition members, neither which
indicated what types of domestic violence or sexual assault support, or other
coalition services, were provided by the members. One list had 22 members
and the second had 52 members; nearly all the members appeared to be
individuals. Of the 74 members, only five appeared to be organizations with
missions related to domestic violence or sexual assault support services.

       Because OSKC was unable to provide a list of programs and events
conducted or attended, we were unable to determine whether the grant
documentation provided a complete picture of program performance for the
sampled year, or for the entire grant period. Grant documentation was not
complete for the grant-funded events in our sample and we were unable to
fully verify program purpose or attendance. Whereas some individual
programs as documented appeared to have met the goals stated in the grant

                                     17

applications, monthly reports stated that other events and meetings had
occurred. However, these did not specify dates, times, or locations or
contain documentation of agendas or attendees. Additionally, information
about events stated in monthly staff and contractor reports was duplicated
from earlier months and data stated in monthly reports about clients served
was inaccurate and unsupported. Individual reports stated that outreach
had occurred, but did not provide details of the types or goals of the
outreach, or any other supporting documentation.

Performance Issues

      We determined that there was insufficient documentation to determine
whether performance measures were reasonable indicators for evaluating
actual performance.

      OSKC officials stated they thought grant program goals and objectives
had been implemented and that OSKC was about half finished with the grant
program and was on track for it to be completed. However, we noted that
OSKC's applications for Supplements 01 and 02 contained duplicated
objectives, indicating that earlier objectives had not been completed.

      OVW froze OSKC's grant funds on April 19, 2012, because of excessive
drawdowns, since OSKC had drawn nearly half of Supplement 02 in the first
quarter of the 2-year project period. OSKC officials stated that drawdowns
were made to reimburse prior expenses, indicating that excessive
drawdowns were the result of excessive expenditures in previous periods.

       We identified numerous issues with documentation related to victim
assistance, including overstated performance metrics, unsupported
numbers, use of client intake forms for non-victim related matters, duplicate
intake forms, multiple intake forms used for the same meeting and the same
individuals, and other irregularities.

      During our fieldwork, the grant-funded youth hotline phone was in use
in Chicago by the former director as a personal phone. We informed the
acting director that this was an unallowable use, and the phone was
returned to OSKC.

      Neither of OSKC's websites were active and OSKC's Twitter account
only showed 10 messages were sent between May 20, 2011, and July 5,
2012.

      As previously stated, OSKC was unable to adequately support their
claims of achievement. We found indications that OSKC would be unable to
meet current or future objectives of the grant programs. We recommend
that the OVW coordinate with OSKC to ensure that program performance

                                     18

occurs in accordance with the goals and objectives stated in the grant
application.

       The grant special conditions also required tribal coalitions to set aside
at least $7,000 per year for planning meetings and board training, but OSKC
could not provide documentation to support any training funds set aside.
The OVW offered OSKC a scholarship to attend a 2012 training. OSKC
officials attended the training but paid with private funds, and stated they
did not accept the scholarship to show the OVW that OSKC intended to
reimburse the grant. We determined that was not a reimbursement to the
grant, as the scholarship was offered through the OVW and would not have
been paid with grant funds. OSKC notified the OVW on November 27, 2012,
that OSKC would not attend any more training due to lack of funding.

       The grant special conditions required OSKC to use specific disclaimer
language for publications created with grant funds. According to OSKC’s
budget narratives for the grant, brochures were to be created addressing
domestic violence and sexual assault support programs. OSKC provided
three brochures advertising its domestic violence and sexual assault support
programs. None of the three brochures addressed the OVW grant
requirement; two of the brochures had disclaimers for other funding sources
and the third had no disclaimer. We also noted that OSKC’s YouTube video
did not include the required disclaimer language. We recommend that the
OVW coordinate with OSKC to ensure that grant special conditions are
followed.

Conclusion

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, terms and
conditions of the grant, and to determine program performance and
accomplishments. We performed detailed transaction testing and examined
OSKC’s accounting records, budget documents, financial and progress
reports, and operating policies and procedures. We found:

    •	 OSKC commingled the OVW grant funds with funding from other
       sources and did not maintain separate accounting records for the
       grant;

    •	 OSKC had internal control deficiencies related to inadequately
       documented policies, related parties, use of cash, and inadequate
       managerial oversight;

    •	 grant funds were used for non-grant expenditures, to be reimbursed
       later;

                                      19

•	 at the time of the last drawdown, cumulative drawdowns exceeded
   cumulative expenditures by $16,514;

•	 drawdowns were not recorded or were not accurately recorded in the
   general ledger;

•	 OSKC paid $64,292 in unsupported personnel costs;

•	 OSKC paid $12,632 in unallowable personnel costs, which included
   $6,696 for an unbudgeted position, and $5,936 in other unallowable
   personnel costs;

•	 documentation supporting personnel costs was inconsistent and
   inaccurate;

•	 328 direct cost transactions totaling $92,914 were not adequately
   supported;

•	 345 direct cost transactions totaling $23,046 were unallowable;

•	 OSKC documentation showed indicators of personal use of OVW
   grant funds;

•	 OSKC documentation indicated unusual expenditures with OVW grant
   funds;

•	 contractor documentation was inconsistent and incomplete;

•	 OSKC documentation did not provide adequate information for
   budget analysis;

•	 of the four most recent FFRs, three were submitted late;

•	 none of the four most recently submitted FFRs were accurate;

•	 of the four most recent Progress Reports, three were submitted late
   and the most recent was not submitted;

•	 none of the two most recently submitted Progress Reports were
   verifiable by source documentation;

•	 OSKC has issues with organizational sustainability;

•	 OSKC’s grant program performance was not completely verifiable;


                                20

       •	 OSKC overstated metrics used in grant performance evaluation;

       •	 OSKC was unable to adequately support their claims of achievement
          and we found indications that OSKC would be unable to meet current
          or future objectives of the grant, and;

       •	 some grant special conditions were not met.

Recommendations

We recommend that the OVW coordinate with OSKC to:

1.	     Ensure that OSKC has a policy to account for OVW grant expenditures
        and funds separately from other funding sources.

2.	     Ensure that OSKC’s documented internal controls are in accordance
        with grant guidelines and are followed by OSKC management and
        personnel.

3.	     Ensure that grant funds are only used for grant expenditures.

4.	     Remedy the $16,514 in drawdowns in excess of expenditures.

5.	     Ensure that drawdowns are accurately recorded.

6.	     Remedy the $64,292 in unsupported personnel expenditures.

7.	     Remedy the $12,632 in unallowable personnel expenditures.

8.	     Remedy the $92,914 in unsupported direct cost expenditures.

9.	     Remedy the $23,046 in unallowable direct cost expenditures.

10.	    Ensure that a policy is in place for expenditures to be recorded
        completely, accurately, and with supporting documentation.

11.	    Ensure that a policy is in place to fully document and effectively
        monitor contractors.

12.	    Ensure that a policy is in place to adequately track grant expenditures
        to the approved budget.

13.	    Ensure that FFRs are submitted timely and accurately.

14.	    Ensure that Progress Reports are submitted timely.


                                        21

15.	   Ensure that Progress Reports are supported by verifiable source
       documentation.

16.	   Ensure that OSKC has a policy for continuity of operations and
       organizational sustainability.

17.	   Ensure that OSKC has a policy to adequately document grant program
       performance metrics.

18.	   Ensure that OSKC meets grant performance goals and objectives.

19.	   Ensure that OSKC has a policy for following grant special conditions.




                                      22

              STATEMENT ON INTERNAL CONTROLS

      As required by the Government Auditing Standards, we tested, as
appropriate, internal controls significant within the context of our audit
objectives. A deficiency in an internal control exists when the design or
operation of a control does not allow management or employees, in the
normal course of performing their assigned functions, to timely prevent or
detect: (1) impairments to the effectiveness and efficiency of operations,
(2) misstatements in financial or performance information, or (3) violations
of laws and regulations. Our evaluation of Our Sister’s Keeper Coalition’s
(OSKC) internal controls was not made for the purpose of providing
assurance on its internal control structure as a whole. OSKC management is
responsible for the establishment and maintenance of internal controls.

      As noted in the Findings and Recommendations section of this report,
we identified deficiencies in OSKC’s internal controls that were significant
within the context of the audit objectives and based upon the audit work
performed that we believe adversely affects OSKC’s ability to adequately
manage grant funds. OSKC provided documented financial policies and
procedures for purchasing and check writing, but did not have payroll or
competitive procurement procedures, which are required by the OJP
Financial Guide. OSKC commingled grant funds with funding from other
sources and did not maintain separate accounting records for the grant.
OSKC did not consistently identify the source of funding for individual
transactions. OSKC experienced financial difficulties during the scope of the
grant. Because of excessive drawdowns, the OVW froze the grant in April
2012 and will continue the freeze until this audit report is issued. OSKC
lacked segregation of duties, had related parties in leadership positions, used
cash to pay grant expenditures, and did not check the suspension or
debarment status of subrecipients.

       Because we are not expressing an opinion on OSKC’s internal control
structure as a whole, this statement is intended solely for the information
and use of OSKC. This restriction is not intended to limit the distribution of
this report, which is a matter of public record.




                                      23

               STATEMENT ON COMPLIANCE WITH

                   LAWS AND REGULATIONS


       As required by the Government Auditing Standards we tested, as
appropriate given our audit scope and objectives, selected transactions,
records, procedures, and practices, to obtain reasonable assurance that Our
Sister’s Keeper Coalition (OSKC) management complied with federal laws
and regulations, for which noncompliance, in our judgment, could have a
material effect on the results of our audit. OSKC’s management is
responsible for ensuring compliance with applicable federal laws and
regulations. In planning our audit, we identified the following laws and
regulations that concerned the operations of the auditee and that were
significant within the context of the audit objectives:

        •	 the OJP Financial Guide, dated August 2008, October 2009, and
           2011;

        •	 the OVW Financial Grants Management Guide, dated February
           2012; and

        •	 OMB Circular No. A-133, Audits of States, Local Governments
           and Non-Profit Organizations, dated June 26, 2007.

      Our audit included examining, on a test basis, OSKC’s compliance with
the aforementioned laws and regulations that could have a material effect on
OSKC’s operations, through interviewing OSKC officials, obtaining OSKC
documentation, analyzing OSKC data, and assessing OSKC internal controls.

      As noted in the Findings and Recommendations section of this report,
we found that OSKC did not always comply with the OJP Financial Guide with
respect to separation of DOJ grant funds from other funding sources,
accuracy of drawdowns, grant accounting requirements, allowability of grant
expenditures, budget management, timeliness and accuracy of Progress
Reports and Federal Financial Reports, grant performance, and grant goals
and objectives.




                                    24

                                                             APPENDIX I

            OBJECTIVE, SCOPE, AND METHODOLOGY

       The purpose of the audit was to determine whether reimbursements
claimed for costs under the grant were allowable, reasonable, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grants, and to determine program performance and
accomplishments. The objective of the audit was to review performance in
the following areas: (1) internal control environment; (2) drawdowns;
(3) grant expenditures, including personnel and other direct costs;
(4) budget management and control; (5) property management;
(6) financial and progress reports; (7) grant requirements; (8) program
performance and accomplishments; and (9) monitoring of subrecipients. We
determined that program income, matching, and indirect costs were not
applicable to this audit.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives. This was an audit of Office on Violence Against Women (OVW)
Grant No. 2007-IW-AX-0005 awarded to Our Sister’s Keeper Coalition
(OSKC). Our audit concentrated on, but was not limited to, the period
from the grant’s September 1, 2007, start date to September 27, 2012.
The grant and two supplements totaled $570,000, and OSKC had drawn
down a total of $493,698 in grant funds through March 6, 2012.

      We tested compliance with what we consider to be the most important
conditions of the grants. Unless otherwise stated in our report, the criteria
we audit against are contained in the OJP Financial Guide and the award
documents.

      In conducting our audit, we performed sample testing in three areas,
which were grant expenditures (including personnel expenditures), Federal
Financial Reports, and Progress Reports. In this effort, we employed a
judgmental sampling design to obtain broad exposure to numerous facets of
the awards reviewed, such as dollar amounts, expenditure category, or risk.
However, this non-statistical sample design does not allow a projection of
the test results for all grant expenditures or internal controls and
procedures.



                                     25

      In addition, we evaluated internal control procedures, performance to
grant objectives, and grant drawdowns, and we assessed the recipient’s
monitoring of subrecipients. However, we did not test the reliability of the
financial management system as a whole and reliance on computer-based
data was not significant to our objective.




                                     26

                                                                        APPENDIX II

                 SCHEDULE OF DOLLAR-RELATED FINDINGS


QUESTIONED COSTS 8                                       AMOUNT               PAGE

Unsupported Excessive Drawdowns                              $16,514             5

Unsupported Personnel Costs                                  $64,292             9

Unallowable Personnel Costs                                  $12,632             9

Unsupported Other Direct Costs                               $92,914             9

Unallowable Other Direct Costs                               $23,046             9

TOTAL QUESTIONED COSTS                                    $209,398

Less Duplicated Questioned Personnel                        ($2,441)
Costs 9

Less Duplicated Questioned Direct                           ($5,310)
Costs7

TOTAL DOLLAR-RELATED FINDINGS                             $201,647




       8
          Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.
       9
         We reduced the total dollar-related findings by the duplicated questioned
costs that were questioned as both unsupported and unallowable under grant
guidelines. As a result, the total questioned costs figure excludes duplicate
questioned costs.

                                            27

                                                                        APPENDIX III

 SUMMARY OF UNALLOWABLE AND UNSUPPORTED EXPENDITURES 10


   Transaction        Check                                              Amount
                                          Payee Name
      Date             No.                                              Questioned

 Unallowable Personnel Expenditures
   6/10/11      2313 MJC                                                      749.88
   6/16/11      2317 MJC                                                      261.86
   6/16/11      2317 MJC                                                      749.88
    9/8/11      2378 MJC                                                      749.88
   10/6/11      2396 MJC                                                      236.91
   10/6/11      2394 MJC                                                      236.92
   10/6/11      2394 MJC                                                      749.88
   10/6/11      2396 MJC                                                      749.88
   11/13/11     2408 MJC                                                      236.92
   11/13/11     2408 MJC                                                      749.88
   11/14/11     2406 MJC                                                      236.93
   11/15/11     2409 MJC                                                      236.91
   11/15/11     2409 MJC                                                      749.88
    2/8/12      2434 DM                                                       776.18
    2/8/12      2440 DM                                                       776.19
    2/8/12      2450 DEM                                                      273.87
    2/8/12      2450 DEM                                                      776.18
    2/8/12      2452 DEM                                                      273.85
    2/8/12      2452 DEM                                                      776.19
    2/8/12      2454 DEM                                                      264.27
    2/8/12      2454 DEM                                                      776.18
    2/8/12      2455 DEM                                                      275.61
    2/8/12      2455 DEM                                                      776.18
                       State of Colorado-Dept of
   05/12/12     2482                                                          191.67
                       Revenue
         Total Unallowable Personnel Expenditures                      $12,631.98

      10
           Check No. acronyms are as stated in OSKC’s general ledger: ATM indicates a
cash withdrawal at an ATM; CK CARD, DR CARD, and POS indicate use of OSKC’s debit card
for purchases; DEP indicates a deposit; EFT indicates an electronic funds transfer; and EW
indicates an electronic withdrawal from OSKC’s bank account. Proper names have been
converted to initials.


                                           28
Transaction    Check                                 Amount
                              Payee Name
   Date         No.                                 Questioned

Unsupported Personnel Expenditures
  01/04/08    1044 PA                               $ 1,770.00
  01/04/08    1043 DM                                 5,625.00
  06/18/09    1798 MC                                   830.00
  02/24/10    2014 CB                                 1,500.00
  02/28/10    wk 37 MULTIPLE                         23,813.02
  05/25/10    2125 SP                                   499.68
  02/25/11    2121 SP                                   846.15
  03/01/11    2122 LT                                   645.25
  03/11/11    2247 LT                                   671.77
  03/14/11    2246 DM                                 1,043.72
  06/10/11    2311 DM                                 1,043.73
  06/10/11    2313 MC                                   749.88
  06/10/11    2314 SP                                   864.88
  06/16/11    2315 DM                                 1,043.72
  06/16/11    2316 LT                                   674.75
  06/16/11    2317 MC                                   749.88
  06/16/11    2319 SP                                   864.88
  09/08/11    2376 DM                                 1,113.73
  09/08/11    2377 LT                                   674.75
  09/08/11    2378 MC                                   749.88
  09/08/11    2379 SP                                   864.88
  09/10/11    2345 SP                                   864.88
  10/06/11    2393 DM                                 1,113.72
                     Colorado Department of
  02/06/12                                             387.00
                     Revenue
   2/8/12     2434 DM                                   776.18
   2/8/12     2438 DM                                   776.18
   2/8/12     2440 DM                                   776.19
   2/8/12     2441 DM                                   776.18
  02/24/12           IRS - United States Treasury     6,272.76
  03/02/12     EFT   IRS – United States Treasury     4,242.73
  04/05/12    2485 DW                                   813.18
  04/05/12    2481 DM                                   661.52




                               29

Transaction   Check                                Amount
                            Payee Name
   Date        No.                                Questioned
                      State of Colorado-Dept of
  05/12/12    2482                                     191.67
                      Revenue
       Total Unsupported Personnel Expenditures   $64,291.74
Unallowable Other Direct Costs
  10/05/07      EW    WAL MART                     $    80.66
  12/07/07      EW    KFC OF BLOOMIFIELD                11.99
  12/07/07      EW    BLOOMFIELD SUPER LUBE            269.40
  12/07/07      EW    ATM-CLIENT ASSIST                 82.00
  01/19/08     1607 LK                                  50.00
  02/18/08     1060 PA                                  60.00
  02/20/08      EW                                      60.00
  02/25/08      EW    THRIFTWAY                         28.06
  04/10/08      EW    SKY UTE CASINO LODGING           120.00
  05/23/08     1100 PL                                  50.00
  05/23/08     1099 PT                                  50.00
  05/23/08     1098 KT                                 100.00
  05/27/08     1101 KW                                  50.00
  05/29/08     1107 KW                                  50.00
  05/29/08     1108 KW                                  50.00
  06/19/08      EW    EXXON MOBIL                       15.02
  07/24/08     1137 SB                                  50.00
  07/24/08     1138 SB                                  50.00
  07/25/08      EW    BASIN COOP                        40.03
  07/25/08     1140 CB                                  50.00
  07/25/08     1141 RG                                 100.00
  07/28/08      EW    CARVER BREWING CO                 41.26
  07/30/08     1507 SB                                 500.00
  08/12/08     1505 PG                                  50.00
  08/12/08     1509 TS                                  50.00
  09/04/08     1517 MT                                  50.00
  09/04/08     1518 MD                                  50.00
  09/04/08     1519 CA                                  50.00
  09/30/08     1533 GM                                  50.00
  09/30/08     1547 BH                                  50.00
  10/03/08     1534 NL                                  50.00


                             30

Transaction   Check                               Amount
                             Payee Name
   Date        No.                               Questioned
 10/07/08     1542    MB                            100.00
 10/14/08     1546    BH                             50.00
 10/21/08     1551    GM                             50.00
 10/29/08     1553    MB                             50.00
 10/31/08     1555    SL                             50.00
 10/31/08     1554    SL                             50.00
 11/16/08     1561    NL                             50.00
 11/19/08     1557    SV                             50.00
 11/19/08     1558    JV                             50.00
 11/19/08     1559    RB                             50.00
 11/21/08     1563    PV                             50.00
 12/05/08     1564    RB                             50.00
 12/05/08     1565    JV                             50.00
 12/05/08     1566    SV                             50.00
 12/11/08     1581    GB                             50.00
 12/11/08     1582    SL                             50.00
 12/12/08     1583    PV                             50.00
 12/28/08     1592    RB                             50.00
 12/28/08     1589    SB                             50.00
 12/28/08     1591    SB                             50.00
 01/13/09     1600    LB                             50.00
 01/18/09     1605    JG                             50.00
 01/20/09      EW     LOWE'S                         49.39
 01/26/09      EW     EXXON MOBIL                    15.00
 01/28/09     1608    GM                             50.00
 01/29/09     1609    LB                             50.00
 02/05/09     1612    RB                             50.00
 02/09/09      EW     HUNTINGTON                      9.56
 02/09/09      EW     HUNTINGTON                     21.21
 02/09/09      EW     WAL MART                       23.44
 02/10/09      EW     GIANT 6007                     23.70
 02/10/09     1613    LK                             50.00
 02/10/09     1614    SL                             50.00
 02/11/09     1621    LB                             50.00
 02/11/09      EW     LA QUINTA INN AND SUITES       62.02


                              31

Transaction   Check                       Amount
                            Payee Name
   Date        No.                       Questioned
 02/17/09      EW     HAMPTON INN            75.88
 02/18/09     1622    SV                     50.00
 02/18/09     1623    JV                     50.00
 02/18/09     1624    JG                     50.00
 02/23/09     1637    AW                     50.00
 02/26/09     1625    LK                     50.00
 03/06/09     1641    CS                     50.00
 03/20/09     1649    DW                     50.00
 03/25/09     1655    RG                     50.00
 03/25/09      EW     HAMPTON INN            75.88
 03/27/09     1657    LS                     50.00
 03/27/09     1660    PV                     50.00
 03/27/09     1659    MF                     50.00
 03/27/09     1656    VL                     50.00
 03/30/09      EW     SHELL OIL              37.44
 03/31/09      EW     GIANT 6007              8.36
 03/31/09     1666    EN                     50.00
 03/31/09     1664    DOJ GRANT              50.00
 04/03/09     1675    IS                     50.00
 04/03/09     1674    SD                     50.00
 04/10/09     1680    RG                     50.00
 04/13/09     1682    PB                     50.00
 04/13/09     1683    TE                     50.00
 04/13/09     1685    VL                     50.00
 04/13/09     1686    MF                     50.00
 04/13/09     1687    TS                     50.00
 04/13/09     1688    TS                     50.00
 04/14/09     1689    EH                     50.00
 04/17/09     1692    MM                     50.00
 04/24/09     1702    JG                     50.00
 05/05/09     1714    LP                     50.00
 05/05/09     1719    RM                     50.00
 05/05/09     1713    AW                     50.00
 05/05/09     1718    AN                     50.00
 05/13/09     1726    MF                     50.00


                             32

Transaction   Check                             Amount
                             Payee Name
   Date        No.                             Questioned
 05/13/09     1727    JR                           50.00
 05/15/09     1730    KE                           50.00
 05/15/09     1731    RB                           50.00
 05/15/09     1729    RG                           50.00
 05/15/09     1739    AO                           50.00
 05/19/09     1735    DW                           50.00
 05/19/09     1725    SD                           50.00
 05/24/09     1705    LP                           50.00
 05/29/09     1748    EH                           50.00
 05/30/09     1747    AB                           50.00
 06/01/09      EW     RITE AID                     17.78
 06/01/09      EW     GIANT 6007                   43.00
 06/03/09     1760    MM                           50.00
 06/03/09     1761    JS                           50.00
 06/03/09     1763    EH                           50.00
 06/03/09     1764    AG                           50.00
 06/03/09     1765    MG                           50.00
 06/03/09     1762    SH                           50.00
 06/03/09     1758    SV                           50.00
 06/03/09     1754    DW                           50.00
 06/03/09     1755    SB                           50.00
 06/03/09     1759    SB                           50.00
 06/03/09     1756    AB                           50.00
 06/03/09     1757    TE                           50.00
 06/03/09     1752    SOUTHERN UTE UTILITIES      150.00
 06/03/09     1751    LPEA                        150.00
 06/07/09     1766    JS                           50.00
 06/09/09     1768    OS                           50.00
 06/09/09     1769    SB                           50.00
 06/09/09     1767    AS                           50.00
 06/09/09     1793    CITY OF DURANGO              66.00
                      SOUTHERN UTE INDIAN
 06/09/09     1753                                175.00
                      HOUSING AUTHORITY
 06/10/09     1777    BS                           50.00
 06/10/09     1778    LS                           50.00


                              33

Transaction   Check                        Amount
                            Payee Name
   Date        No.                        Questioned
 06/10/09     1774    SW                     100.00
 06/10/09     1771    LY                     100.00
 06/10/09     1772    RM                     100.00
 06/10/09     1773    BY                     100.00
 06/10/09     1775    LY                     100.00
 06/10/09     1776    RY                     100.00
 06/11/09     1787    SG                      50.00
 06/11/09     1788    SG                      50.00
 06/11/09     1785    SG                      50.00
 06/11/09     1784    SG                      50.00
 06/11/09     1786    SG                      50.00
 06/11/09     1783    SG                      50.00
 06/17/09     1801    DW                      50.00
 06/17/09     1800    MW                      50.00
 06/17/09     1799    MH                      50.00
 06/17/09     1804    RR                      50.00
 06/17/09     1802    RW                      50.00
 06/18/09     1790    LP                      50.00
 06/18/09     1789    LP                      50.00
 06/18/09     1803    ST                      50.00
 06/19/09     1806    AN                      50.00
 06/19/09     1811    EC                      50.00
 06/19/09     1810    RB                      50.00
 06/23/09      EW     CASH                    42.95
                      CORRECTIONAL BILL
 06/24/09      EW                             56.95
                      SERVICES
 06/25/09      EW     SECURE PAK              49.60
 06/26/09      EW     SEARS                   40.78
 06/29/09     1814    MJ                      50.00
 06/30/09     1820    JR                     110.00
 06/30/09     1815    EH                      50.00
 06/30/09     1812    EH                      50.00
 06/30/09     1816    EH                      50.00
 06/30/09     1832    MC                      50.00
 06/30/09     1833    MC                      50.00


                             34

Transaction   Check                       Amount
                            Payee Name
   Date        No.                       Questioned
 06/30/09     1834    MC                     50.00
 06/30/09     1835    MC                     50.00
 06/30/09     1836    MC                     50.00
 06/30/09     1838    SG                     50.00
 06/30/09     1837    EH                    150.00
 06/30/09      EW     CASH                  260.00
 07/01/09     1825    DW                     50.00
 07/01/09     1826    SB                     50.00
 07/01/09     1829    JR                     50.00
 07/01/09     1831    JR                     50.00
 07/01/09     1822    LS                     50.00
 07/01/09     1821    EC                     50.00
 07/01/09     1823    MT                    250.00
 07/01/09     1824    MH                    300.00
 07/02/09     1830    JR                     50.00
 07/06/09     1839    SG                     50.00
 07/06/09     1840    SG                     50.00
 07/06/09     1841    MC                     50.00
 07/06/09     1842    MC                     50.00
 07/06/09     1843    MC                     50.00
 07/06/09     1844    MC                     50.00
 07/06/09     1845    JC                     50.00
 07/08/09     1847    CITY MARKET            31.40
 07/08/09     1848    SS                     50.00
 07/09/09     1853    EH                     50.00
 07/09/09     1849    SB                    150.00
 07/13/09     1854    EC                     50.00
 07/13/09     1855    EH                     50.00
 07/14/09      EFT    GREYHOUNDLINES         59.60
 07/16/09     1867    EN                     50.00
 07/16/09     1858    VL                     50.00
 07/16/09     1859    TS                     50.00
 07/16/09     1860    TS                     50.00
 07/16/09     1861    MB                     50.00
 07/16/09     1866    EN                    150.00


                             35

Transaction   Check                              Amount
                             Payee Name
   Date        No.                              Questioned
 07/17/09      EFT    KFC OF DURANGO                29.92
 07/23/09     1868    CS                            50.00
 07/23/09     1869    JS                            50.00
 07/23/09     1870    SB                            50.00
 07/23/09     1871    AO                            50.00
 07/29/09     1875    DW                            50.00
 07/30/09      EFT    RITE AID                      44.79
 07/30/09     1873    KG                            50.00
 07/30/09     1874    CG                            50.00
 07/30/09     1877    KA                            50.00
 07/30/09     1878    JL                            50.00
 07/30/09     1879    SD                            50.00
 07/30/09     1881    TE                            50.00
 07/30/09     1880    CD                            50.00
 07/30/09     1883    MB                            50.00
 07/30/09     1884    MB                           150.00
 07/31/09      EFT    CITY MARKET                   17.49
 08/03/09      EFT    WELLS FARGO                  102.00
 08/03/09     1892    KG                            35.00
                      AMERICA'S BEST VALUE IN
 08/03/09      EFT                                 123.16
                      FARMINGTON
 08/05/09     1896    DD                            50.00
 08/06/09      EFT    RITE AID                      20.18
 08/06/09      EFT    WELLS FARGO                  103.00
 08/06/09      EFT    GREYHOUNDLINES               132.00
 08/07/09     1895    BD                            50.00
 08/07/09      EFT    BUDGET INN                    75.83
 08/09/09     1897    WP                           100.00
 08/10/09      EFT    WENDY'S                       21.61
 08/12/09      EFT    LA PLATA ELECTRIC            180.00
 08/13/09     1901    RR                            50.00
 08/13/09     1902    JR                            50.00
 08/13/09     1903    JR                           100.00
 08/13/09     1900    MH                           250.00
 08/17/09      EFT    TRAVELODGE                   352.80


                              36

Transaction   Check                             Amount
                            Payee Name
   Date        No.                             Questioned
 08/17/09     1906    EH                           50.00
 08/17/09     1907    EH                           50.00
 08/17/09     1908    LD                           50.00
 08/17/09      EFT    WELLS FARGO                 100.00
 08/17/09     1909    SG                          150.00
                      HEALING HEARTS-A PLACE
 08/17/09     1929                                300.00
                      FOR HEALING
 08/18/09     1923    TE                           50.00
 08/18/09     1924    LB                           50.00
                      CORRECTIONAL BILL
 08/24/09      EFT                                 56.95
                      SERVICES
 08/25/09      EFT    TRAVELODGE                  184.80
 08/26/09      EFT    BASIN COOP                   50.00
 08/28/09     1927    JG                           50.00
 08/28/09     1928    AO                           50.00
                      CORRECTIONAL BILL
 08/28/09      EFT                                 56.95
                      SERVICES
 08/31/09      EFT    CONNECT WEB                  40.00
 09/01/09      EFT    COX CONOCO                   30.00
                      CORRECTIONAL BILL
 09/01/09      EFT                                 56.95
                      SERVICES
 09/09/09      EFT    BM                            6.95
                      CORRECTIONAL BILL
 09/09/09      EFT                                 50.00
                      SERVICES
 09/18/09     1940    LB                           45.00
                      CORRECTIONAL BILL
 09/22/09      EFT                                 56.95
                      SERVICES
 09/24/09      EFT    7 2 11                        7.72
 09/25/09      EFT    THIRFTWAY                    25.00
 10/05/09     1947    DOJ GRANT                   206.50
 10/13/09     ATM     WELLS FARGO                   2.50
 10/13/09     ATM     WELLS FARGO                 102.00
 10/19/09     1954    CB                           50.00
 10/19/09     1955    AO                           50.00
 11/03/09     1965    LM                           50.00
 11/10/09      EW     SHELL OIL                    30.03
 11/17/09     1977    EW                           25.00

                             37

Transaction   Check                              Amount
                            Payee Name
   Date        No.                              Questioned
 12/02/09     1985    ST                            50.00
                      ACCESS - INMATE PACKAGE
 12/07/09      EW                                   28.90
                      PROGRAM
                      ACCESS - INMATE PACKAGE
 12/07/09      EW                                   50.00
                      PROGRAM
 03/01/10     2021    LP                            50.00
 03/01/10     2023    DOJ GRANT                     75.00
 03/17/10             DOJ GRANT                    452.50
 03/23/10     2042    DOJ GRANT                     25.00
 03/23/10     2040    DOJ GRANT                     25.00
 03/23/10     2043    DOJ GRANT                     25.00
 03/23/10     2044    DOJ GRANT                     50.00
 03/23/10     2047    DOJ GRANT                     50.00
 03/23/10     2045    DOJ GRANT                     75.00
 03/23/10     2046    DOJ GRANT                     75.00
 03/23/10     2041    DOJ GRANT                     75.00
 04/07/10     2066    DOJ GRANT                     25.00
 04/08/10     2068    KATCHINA KITCHEN              45.95
 04/26/10     ATM     WELLS FARGO                  102.00
 05/12/10      EW     KFC OF DURANGO                39.99
 05/24/10      EW     DOJ GRANT                     63.08
 05/25/10     2118    EN                            50.00
 05/27/10      EW     TACO BELL                     15.03
 05/27/10      EW     KFC OF DURANGO                28.85
 07/12/10     2146    NL                            50.00
 07/12/10     2149    LM                            50.00
 07/23/10      EW     WAL MART                     134.91
 08/09/10      EW     PIZZA HUT                     39.24
 08/10/10     2158    LP                            25.00
 08/10/10     2159    EY                            25.00
 08/10/10     2160    EN                            25.00
 08/10/10     2161    SB                            25.00
 08/10/10     2162    KC                            25.00
 10/07/10     2184    DOJ GRANT                     25.00
 10/07/10     2185    ASK DIANE                     25.00
 10/12/10      EW     DOJ GRANT                     94.00

                             38

Transaction   Check                               Amount
                             Payee Name
   Date        No.                               Questioned
 10/19/10     2192    JF                             50.00
 11/08/10     2201    LP                            100.00
 11/08/10             ANETH LODGE                   174.35
 11/09/10             TORTILLA FLATS                 28.07
 11/09/10             SHELL OIL                      36.03
 11/09/10             ORE HOUSE ON THE PLAZA         65.50
 11/09/10             LA QUINTA INN AND SUITES       67.97
 11/09/10             LA QUINTA INN AND SUITES       86.36
 11/19/10      N/A    DENNY’S                        62.02
 12/09/10     2211    LJ                             50.00
 02/15/11     2237    LP                            100.00
 03/24/11     2264    GM                             25.00
 03/24/11     2265    GM                             20.00
               CK     ACCESS - INMATE PACKAGE
 03/25/11                                            99.80
              CARD    PROGRAM
 03/29/11     2263    KC                             25.00
               CK
 05/05/11             PIZZA HUT                      49.36
              CARD
               CK
 05/09/11             PIZZA HUT                      42.84
              CARD
 05/16/11     2295    KC                             85.00
 05/17/11     2294    MC                            100.00
 05/17/11     2296    LP                             25.00
 05/19/11     2297    SF                             25.00
               CK
 06/01/11             SERIOUS TEXAS BBQ               9.75
              CARD
               CK
 06/01/11             SERIOUS TEXAS BBQ              42.00
              CARD
               CK
 06/21/11             SERIOUS TEXAS BBQ              21.50
              CARD
               CK
 06/21/11             SERIOUS TEXAS BBQ              83.00
              CARD
               CK
 09/12/11             EXXON MOBIL                    50.00
              CARD
 09/29/11             AXXIS AUDIO OF DURANGO        520.00
               CK
 09/29/11             EXXON MOBIL                    17.86
              CARD


                              39

Transaction    Check                                  Amount
                              Payee Name
   Date         No.                                  Questioned
                CK
  09/30/11             SERIOUS TEXAS BBQ                   88.25
               CARD
                CK
  10/21/11             SERIOUS TEXAS BBQ                   54.00
               CARD
  12/16/11             LA QUINTA INN AND SUITES            83.51
  12/28/11      POS    WAL MART                            77.82
                 CK
  12/29/11             BASIN COOP                          30.00
               CARD
  01/18/12      POS    JCPENNY                             94.95
                 CK
  01/23/12             CAR WASH MACHINE                     5.08
               CARD
  02/08/12     2419    CDR PROPERTIES, LLC               754.10
  02/08/12     2427    DM                                 57.36
  02/24/12      POS    WAL MART                          151.84
  02/27/12      POS    SAMS CLUB                          54.78
  02/27/12     2462    MO                                 76.50
  02/27/12     2464    SF                                 76.50
  03/13/12     2463    LP                                 76.50
                                                              $
              Total Unallowable Other Direct Costs
                                                     23,046.49
Unsupported Other Direct Costs
  02/28/07     EW     WOLF CREEK SKI LODGE           $      53.66
  09/18/07    1026 DURANGO OFFICE SUITES                 1,000.00
  10/09/07     EW     OFFICE DEPOT                         414.46
  10/17/07    1031 LW                                      427.34
  12/07/07     EW     ATM-CLIENT ASSIST                     82.00
  12/10/07     EW     "MNM LLC" IN AURORA, CO               42.07
  02/12/08    1051 DC                                    2,500.00
  02/14/08    1056 OL                                    3,059.50
  02/28/08    1070 DURANGO OFFICE SUITES                 1,531.35
  04/10/08     EW     SKY UTE CASINO LODGING               120.00
  04/11/08    1087 WK                                      900.00
  04/11/08    1088 DM                                      900.00
  05/01/08     EW     FRONTIER AIRLINES                    466.38
  07/25/08    1140 CB                                       50.00
  07/28/08     EW     CARVER BREWING CO                     41.26


                                 40

Transaction   Check                           Amount
                            Payee Name
   Date        No.                           Questioned
 07/30/08     1507    SB                         500.00
 09/04/08     1517    MT                          50.00
 09/08/08      EW     UNITED AIRLINES            379.00
 09/11/08     1525    ALLIED GENERAL           1,800.00
                      ADVANCED
 09/18/08     1540                               65.00
                      COMMUNICATIONS
 09/25/08     1528    DC                       2,500.00
 09/30/08      EW     HC                         162.62
 09/30/08     1533    GM                          50.00
 10/14/08     1543    AM                         570.00
 10/20/08     1550    DM                         171.37
 10/21/08     1551    GM                          50.00
 11/10/08      EW     BEST WESTERN DURANGO        94.00
 01/14/09     1601    INNOVATIVE MEDIA         1,200.00
 01/20/09      EW     LOWE'S                      49.39
 02/06/09     1610    IP                         490.00
 02/10/09     1613    LK                          50.00
 02/19/09      EW     UNITED AIRLINES            470.40
 02/22/09     1629    DM                         988.42
 04/10/09     1680    RG                          50.00
 05/05/09     1714    LP                          50.00
 05/15/09     1739    AO                          50.00
 05/21/09      EW     KFC OF DURANGO              47.22
 05/30/09     1747    AB                          50.00
 06/03/09     1756    AB                          50.00
 06/10/09     1774    SW                         100.00
 06/11/09     1784    SG                          50.00
 06/11/09     1783    SG                          50.00
 06/18/09     1790    LP                          50.00
 06/19/09     1810    RB                          50.00
 06/29/09     1814    MJ                          50.00
 07/17/09      EFT    KFC OF DURANGO              29.92
 08/04/09      EFT    HOTEL FRONT DESK           169.60
 08/04/09      EFT    HOTEL FRONT DESK           169.60
 08/31/09      EFT    ALLTEL                      65.00


                             41

Transaction   Check                          Amount
                             Payee Name
   Date        No.                          Questioned
 09/07/09     1938    KA                      2,400.00
                      CORRECTIONAL BILL
 09/21/09      EFT                              56.95
                      SERVICES
                      CORRECTIONAL BILL
 09/29/09      EFT                              56.95
                      SERVICES
 10/13/09      EFT    HILTON HOTELS            398.76
 10/13/09     ATM     WELLS FARGO                2.50
 10/13/09     ATM     WELLS FARGO              102.00
 10/19/09     1955    AO                        50.00
 10/19/09     1956    JG                        50.00
 10/19/09     1957    TS                        50.00
 10/23/09     1958    AN                        50.00
 10/26/09     ATM     WELLS FARGO                2.50
 10/26/09     ATM     WELLS FARGO               42.60
 10/27/09     1959    JS                        50.00
                      CORRECTIONAL BILL
 10/27/09      EFT                              56.95
                      SERVICES
                      CORRECTIONAL BILL
 10/27/09      EFT                              56.95
                      SERVICES
 10/29/09     1960    EW                        50.00
 10/29/09     1962    EH                        50.00
 11/02/09     1963    LB                        50.00
 11/03/09     1965    LM                        50.00
 11/04/09     1966    JG                        50.00
 11/10/09      EW     SHELL OIL                 30.03
 11/15/09     1976    CDR PROPERTIES, LLC      900.00
 11/17/09     1977    EW                        25.00
 11/17/09     1975    BEAU JOS                  53.69
 11/19/09     1978    WP                        50.00
 11/22/09     1981    AO                        50.00
 12/02/09     1983    EW                        50.00
 12/02/09     1985    ST                        50.00
 12/09/09      EW     QWEST                     70.00
 12/10/09      EW     ALLTEL                    60.00
 01/08/10     1993    CA                        50.00
 01/11/10             GREYHOUNDLINES           148.05


                              42

Transaction   Check                             Amount
                            Payee Name
   Date        No.                             Questioned
 01/12/10     1994    WA                           50.00
 01/19/10      N/A    UNITED AIRLINES             797.50
                      CORRECTIONAL BILL
 01/29/10                                          36.95
                      SERVICES
 01/29/10             WELLS FARGO                   60.00
 02/01/10             GRANDVIEW SONOCO              10.00
 02/01/10             WELLS FARGO                  160.00
 02/02/10             MESA MARKET                    5.60
 02/09/10             GRANDVIEW SONOCO              30.00
 02/09/10     1995    KC                            50.00
 02/22/10             PIZZA HUT                     49.77
 02/24/10     2010    LL                            50.00
 02/24/10     2013    SG                            50.00
 02/24/10     2012    SG                            50.00
 02/24/10     2011    SG                            50.00
 02/24/10     2015    SL                            50.00
 03/01/10     2021    LP                            50.00
 03/17/10      N/A    WELLS FARGO                  452.50
 03/17/10                                            2.50
 03/17/10             WELLS FARGO                  122.00
 03/17/10             WELLS FARGO                  300.00
 03/22/10     2036    CDR PROPERTIES, LLC        3,200.00
 03/22/10             DSW SHOE WAREHOUSE            86.91
 03/22/10     2054    WP                           100.00
                      ASAP ACCOUNTING &
 03/23/10     2055                                567.00
                      PAYROLL
 03/23/10     2060    JK                           50.00
 03/23/10     2059    SG                          100.00
                      HEALING HEARTS-A PLACE
 03/25/10     2053                                515.00
                      FOR HEALING
 04/08/10     2068    KATCHINA KITCHEN              45.95
 04/09/10     2076    MB                            25.00
 04/15/10     2084    AF                         3,000.00
 04/15/10     2077    MB                            25.00
 04/15/10     2079    EC                            25.00
 04/15/10     2080    YD                            25.00

                             43

Transaction   Check                               Amount
                             Payee Name
   Date        No.                               Questioned
 04/15/10     2087    YD                             25.00
 04/15/10     2088    EC                             25.00
 04/15/10     2078    MH                            100.00
 04/19/10      EW     USAIRWAYS                     406.80
                      HEALING HEARTS-A PLACE
 04/26/10     2097                                  900.00
                      FOR HEALING
 04/26/10     2058    WP                             50.00
 04/26/10     ATM     WELLS FARGO                   102.00
 04/26/10     2098    EMPIRE ELECTRIC ASSOC         166.77
 04/27/10     2096    WP                             50.00
 04/27/10     2095    WP                             50.00
 05/03/10      EFT    SHELL OIL                      20.13
 05/03/10      EFT    GIANT 6007                     38.79
 05/03/10      EFT    LA QUINTA INN AND SUITES       86.44
 05/05/10     2104    SG                            900.00
 05/05/10     2101    YD                             50.00
 05/05/10     2102    BB                            100.00
 05/05/10     2106    DM                            134.50
 05/06/10     2107    AO                             50.00
 05/11/10     2108    WP                             50.00
 05/11/10     2109    WP                             50.00
 05/11/10     2110    LS                             50.00
 05/11/10     2111    MB                             50.00
 05/12/10      EW     KFC OF DURANGO                 39.99
 05/19/10      EW     WELLS FARGO                    60.00
 05/20/10      EW     EXXON MOBIL                     6.91
 05/25/10     2114    NL                             50.00
 05/25/10     2115    DD                             50.00
 05/25/10     2116    MV                             50.00
 05/25/10     2117    LJ                             50.00
 05/25/10     2118    EN                             50.00
 05/25/10     2119    ML                             50.00
 05/25/10     2120    AW                             50.00
 05/25/10     2121    WP                             50.00
 05/27/10      EW     TACO BELL                      15.03


                              44

Transaction   Check                               Amount
                             Payee Name
   Date        No.                               Questioned
 05/27/10      EW     KFC OF DURANGO                  28.85
 06/10/10     2130    CA                              50.00
 06/10/10     2131    DC                              50.00
 06/10/10     2132    YD                              50.00
 06/10/10     2134    NW                              50.00
 06/14/10             V-CONNECT                       60.00
 06/16/10     2137    DM                             451.00
 06/21/10             WELLS FARGO                    100.00
 07/06/10      EW     ACE LIMOUSINE/TAXI              75.00
 07/06/10      EW     HERTZ RENTAL                   359.18
 07/06/10      EW     EXPEDIA TRAVEL                 462.21
 07/07/10      EW     LA QUINTA INN AND SUITES        71.73
 07/12/10     2145    KH                              50.00
 07/12/10     2146    NL                              50.00
 07/12/10     2147    CM                              50.00
 07/12/10     2148    CW                              50.00
 07/12/10     2149    LM                              50.00
 07/19/10      EW     AMERICAN FURNITURE           1,037.77
 07/23/10      EW     FRONTIER AIRLINES              319.40
 07/23/10      EW     WAL MART                       134.91
 07/29/10      EW     BURGER KING                     15.52
 08/05/10     2153    CDR PROPERTIES, LLC            800.00
 08/09/10      EW     PIZZA HUT                       39.24
 08/16/10     ATM     WELLS FARGO                    102.50
 08/17/10      EW     SAN JUAN VETERINARY            200.00
                      CORRECTIONAL BILL
 08/18/10      EW                                    31.95
                      SERVICES
 08/19/10     ATM     WELLS FARGO                    22.50
                      UTE MOUNTAIN UTE INDIAN
 08/30/10     2174                                 3,000.00
                      TRIBE
 08/30/10     2173    CDR PROPERTIES, LLC           800.00
 08/30/10     2175    CA                            100.00
                      HEALING HEARTS-A PLACE
 09/09/10     2177                                 3,000.00
                      FOR HEALING
 09/13/10     2178    ALLIED GENERAL               1,673.75
 09/13/10     2179    GW                              34.00

                              45

Transaction   Check                               Amount
                             Payee Name
   Date        No.                               Questioned
 09/13/10     2180    CW                             50.00
 09/13/10     2181    LJ                             50.00
 09/13/10     2182    CR                             50.00
 09/21/10             WAL MART                       66.15
 09/22/10     2116    SS                             50.00
 09/23/10             LOS TEL TO                      9.87
 09/27/10             WAL MART                       22.01
                      HEALING HEARTS-A PLACE
 10/07/10     2183                                 3,000.00
                      FOR HEALING
 10/18/10     ATM     WELLS FARGO                  2,200.00
 10/19/10     2188    LM                              50.00
 10/19/10     2190    PK                              50.00
 10/19/10     2191    TO                              50.00
 10/19/10     2192    JF                              50.00
 10/19/10     2193    CW                              50.00
 10/19/10     2194    FN                              50.00
 10/19/10     2195    BB                              50.00
 10/21/10     2071    AF                           1,300.00
 10/27/10             WELLS FARGO                      2.50
 10/27/10     ATM     WELLS FARGO                    102.50
 11/01/10     2196    PK                              50.00
                      CORRECTIONAL BILL
 11/01/10      EW                                    56.95
                      SERVICES
 11/05/10     ATM     WELLS FARGO                    62.00
 11/08/10     2202    MW                             50.00
 11/08/10     2201    LP                            100.00
 11/08/10     2200    SG                            150.00
 11/08/10             ANETH LODGE                   174.35
 11/09/10             TORTILLA FLATS                 28.07
 11/09/10             SHELL OIL                      36.03
 11/09/10             ORE HOUSE ON THE PLAZA         65.50
 11/09/10             LA QUINTA INN AND SUITES       67.97
 11/09/10             LA QUINTA INN AND SUITES       86.36
 11/10/10     2119    ASAP ACCOUNTING                52.50
 11/18/10     NO #    WELLS FARGO                   300.00
 11/18/10             ANETH LODGE                   174.35

                              46

Transaction   Check                                Amount
                             Payee Name
   Date        No.                                Questioned
 11/19/10      N/A    UNITED AIRLINES                 747.30
 11/19/10      N/A    DENNY'S                          62.02
 11/22/10      N/A    UNITED AIRLINES                 747.30
 11/22/10      N/A    WELLS FARGO                     462.00
 11/24/10             BASIN COOP                       20.02
 11/30/10     2205    FN                               50.00
 11/30/10     2206    FN                              100.00
 12/09/10     2213    ST                              499.68
 12/09/10     2210    NW                               50.00
 12/09/10     2211    LJ                               50.00
 12/09/10     2212    PK                               50.00
 12/28/10     2216    CDR PROPERTIES, LLC           1,333.00
 12/30/10      EW     FRANCISCOS RESTAURANT            83.97
 01/03/11     2218    JG                               50.00
 01/03/11     2219    JG                               50.00
                      ST CONTRACTUAL SERVICES ­
 01/18/11     2076                                   498.00
                      JAN 2011
                CK
 01/18/11             THE PATIO                       11.10
              CARD
                CK
 01/20/11             SECURUS CORR BILL SVCS         106.95
              CARD
 01/21/11     2223    FN                              50.00
 01/21/11     2222    FN                              50.00
                CK
 01/24/11             SECURUS CORR BILL SVCS         106.95
              CARD
 01/27/11     2224    DP                              50.00
 02/08/11     2238    DM                             192.00
 02/08/11      POS    WAL MART                        90.54
                      HEALING HEARTS-A PLACE
 02/09/11     2227                                   105.00
                      FOR HEALING
 02/11/11     2245    ST                             499.00
 02/22/11     2235    YD                              50.00
 02/28/11     2123    ST                             499.00
 03/09/11     2078    SL                             100.00
 03/11/11     2081    CW                              50.00
               CK
 03/11/11             EVERY DAY                       20.00
              CARD

                              47

Transaction   Check                              Amount
                             Payee Name
   Date        No.                              Questioned
 03/17/11     2253    FN                            50.00
 03/18/11     2254    JC                           300.00
 03/24/11     2261    KG                            50.00
 03/24/11     2260    LS                            50.00
 03/24/11     2259    WP                            50.00
                CK    ACCESS - INMATE PACKAGE
 03/25/11                                           99.80
              CARD    PROGRAM
                CK
 03/28/11             LIBERTYDATE/FEINSEARCH        39.99
              CARD
 03/30/11     2266    AW                            50.00
 03/30/11     2267    GH                           100.00
 03/30/11     2268    KG                            50.00
                CK
 04/11/11             BASIN COOP                    60.02
              CARD
                CK
 04/21/11             EXXON MOBIL                   50.02
              CARD
 04/21/11      POS    WAL MART                     167.10
 04/25/11      ATM    CASH                          60.00
                CK
 04/27/11             EXXON MOBIL                   50.02
              CARD
                CK
 05/05/11             PIZZA HUT                     49.36
              CARD
                CK
 05/09/11             PIZZA HUT                     42.84
              CARD
 05/11/11     2291    FN                            50.00
                CK
 05/16/11             BASIN COOP                    20.00
              CARD
                CK
 05/16/11             EXXON MOBIL                   24.03
              CARD
 05/16/11      POS    EXXON MOBIL                   45.03
 05/17/11     2294    MC                           100.00
                CK
 05/18/11             USAIRWAYS                    288.90
              CARD
 05/19/11             TRANSFER                      100.00
 05/27/11     2320    AC                          1,200.00
               CK
 06/01/11             SERIOUS TEXAS BBQ              9.75
              CARD


                             48

Transaction   Check                              Amount
                               Payee Name
   Date        No.                              Questioned
               CK
 06/01/11             SERIOUS TEXAS BBQ             42.00
              CARD
 06/06/11             CASH                         200.00
 06/10/11             CASH                         350.00
               CK
 06/10/11             WAL MART                      64.99
              CARD
               CK
 06/13/11             SKY UTE CASINO RESORT        126.81
              CARD
 06/20/11     2323    FN                            50.00
               CK
 06/21/11             SERIOUS TEXAS BBQ             21.50
              CARD
               CK
 06/21/11             SERIOUS TEXAS BBQ             83.00
              CARD
               CK
 06/29/11             AT & T                       539.73
              CARD
 07/05/11     2332    DM                           374.50
 07/05/11             CASH                         182.50
 07/05/11      POS    BEST BUY                     128.53
 07/05/11      POS    KID'S FOOT                    42.85
 07/05/11      POS    WAL MART                      60.07
 07/15/11     2340    GRIGSBY COURT REPORTING      360.00
                CK
 07/27/11             EXXON MOBIL                   14.30
              CARD
 08/02/11     2357    DM                           374.50
                CK
 08/08/11             SAMS CLUB                     74.98
              CARD
 08/11/11     2364    MB                            50.00
 08/24/11     2365    DP                            50.00
                CK
 08/29/11             BASIN COOP                    40.02
              CARD
 08/31/11      POS    SAMS CLUB                     27.26
                CK
 09/12/11             EXXON MOBIL                   50.00
              CARD
 09/26/11     2381    ALLIED GENERAL              1,828.25
 09/29/11             AXXIS AUDIO OF DURANGO        520.00
               CK
 09/30/11             SERIOUS TEXAS BBQ             88.25
              CARD
 10/18/11             AM                          1,500.00

                               49

Transaction    Check                                  Amount
                              Payee Name
   Date         No.                                  Questioned
                 CK
 10/21/11              SERIOUS TEXAS BBQ                  54.00
                CARD
 11/14/11        DEP   OVERDRAFT PROTECTION              246.71
 12/02/11              AM                                870.26
 12/16/11              LA QUINTA INN AND SUITES           83.51
 02/08/12       2431   DM                              3,800.00
 02/08/12       2432   DM                              1,000.00
 02/08/12       2431   DM                              1,000.00
 02/08/12       2422   DW                                500.00
 02/08/12       2423   DM                                300.00
 02/08/12       2422   DW                                255.00
 02/08/12       2422   DW                                196.00
 02/08/12       2428   DM                                 58.54
                       CLARK, WHITE AND
 02/08/12       2418                                     950.00
                       ASSOCIATES
 02/21/12              BUSINESS MARKET SAVINGS           100.00
 02/22/12       2460   DM                                791.48
 02/23/12       2461   GM                                 76.50
 02/24/12       POS    WAL MART                          151.84
 02/27/12       2464   SF                                 76.50
 02/27/12       2462   MO                                 76.50
 02/27/12       2465   DR                                 75.00
 02/27/12       2462   LP                                 75.00
 02/27/12       2462   MO                                 75.00
 02/27/12       2464   SF                                 75.00
 03/12/12       2474   LINUX BOX                         400.00
 04/17/12              TRANSFER                          100.01
 05/10/12        ATM   CASH                              103.00
 06/07/12       2489   SF                                 25.00
                 DR
 06/14/12              AT & T                            371.10
                CARD
 07/22/12       2488 LP                                   25.00
              Total Unsupported Other Direct Costs   $92,913.83




                               50

                                                                                       APPENDIX IV

              OUR SISTER’S KEEPER COALITION RESPONSE
                Our Sister's Keeper Coalition, Inc.
                A Tnb.1.i Co:ilirion A:w:..ting SllIy/vor.. of Rll11Jiy Violence <lnd Se,nul Violence



December 12, 20 13


Mr. David Sherecn
RegIOnal Audit M,Ulagcr
Denver Regional Audit. Office
O ffice of the Inspector General
U.S. Department of Justice
1120 Lincoln Street, Suite 1500
Denver, CO 80203

Dear Mr. Sheree n:

In Augu~t. of 20 12, OIG auditor spent t.wo weeks at Om' Sister' s Keeper Coalition (OSKC)
reviewing Gles with tlle assistance of the Acting E. . .ecutive Director. Since she \\~dS only in this
position for two montl1S approved by BOD (Board of Directors), ovw (OUice of Violence
Against \ Vomen), GANS (Gran t approval August 1, 2012), she \\~..Is not familia.r enough with the
electronic and hard copy files to respo nd fully to some of the audit.or's queslions. Afte r leaving in
September 20 12, OSKC receIVed a few follow-up questions m } ebru,uy 2013 and tllell did not
                                                                         '
have any correspondence from th e all{ut.or unt.il October 29, 2013. TIlis infomlation was emailed
wit.hout a phone call alerting OSKC thal the drali. audit was linally complete. Although Ms. 'vVhite
tried !>eVer;).l time~ to call the auditor to determine if there were ;).ddition;).1 questions, no responses
were given lUltil the audit email was sent.

O m Sister's Keeper Coalition Inc. (OSKC) received notice of the draJi. audit repOit on October
18,2013. The oHicc (ud not. have access to the internet. prior to October 18, 2013 due t.o a move
1Il a rmal location on the Southern Ute Indian HeselvatioIl; illld did not realize lhat the Heglonal

Audit Office does not use the United States Postal Senrice and is a non-paper/hard copy office.

Ahhough the initial audit email slat.e d thaI. OSKC had 2 1 days t.o respond 1.0 t.he 54 page repon ,
o KSC ,lppreciates the addit.ional 30 days to more aecw'aiely respond to this audit. since t.he
negat.ive conclusions and gcneraliz:ltions alxmt this dedicated organ iz~1 ti o n t.(X)k the volunteers and
Board of Directors (BOD) by sw-prise.

TIle draft audit liSled several fll1dings and generalizations to tlle point of unfounded accusations
about this organization. The Acting Director had provided back-up documents to the auditor but
it appears that tills infonnation may not. have been docmnellled in tile exact Jonnat as an
accountant would prefer. Many of tllese iTe ms lisled in this draft. audil. report could have easily
been explained a.nd additional infonnation pro,rided if tlle a.uditor had COlIllIllUllcated their
questions dmmg the low-teen monl..hs t.hey were rtviewlIlg the documents SCilllIled from OSKC's
files in the end of August. 2012.




                                                    51

However, OSKC has always had sound financial management policies and procedures based on
the federal and state guidelines. OSKC was not subject to the mandatory annual audit and did not
make this a practice. OSKC was diligent to incorporate O]P Financial Guide and 2012 OVW
Financial Grants Management policies and procedures based on federal rule of law. Further,
OSKC had difficulties in obtaining timely responses from OVW that impacted OSKC's ability to
effectively manage the grant. The most significant is correspondence from OSKC to OVW
pertaining to reimbursement policy to DO] for any incorrect transactions.

Throughout the six-year DO] OVW grant, the DO] grant manager never once questioned the
narrative performance reports and the financial reports.     In fact, DO] renewed the grant and
increased the funding over the six-year grant period demonstrating their approval of OSKC's
performance to meet their stated goals and objectives. Since there had been no red flag warnings
or specific comments on reporting issues, OSKC Board of Directors and Acting Executive
Director were shocked when this audit listed numerous issues that could have been easily
prevented if the OVW had provided specific templates that demonstrated exactly how the files
should be kept and allowed for grant funds to be used for accounting and payroll services.

Our Sister's Keeper Coalition, Inc. (OSKC) is a relatively small non-profit organization located in
the Southwest region of Colorado and serves all victims of domestic violence on the Southern Ute
Reservation, Ute Mountain Ute Reservation, LaFlata County, Sanjuan County, Archuleta County,
and Montezuma County in the State of Colorado. The two Colorado Ute Tribes, Southern Ute
and Ute Mountain Ute, has historically been supportive of all domestic violence services provided
by OSKC. The limited resources and funding has been a recent challenge for OSKC; and more
recently has limited the managerial and accounting activities of this small non-profit.

OSKC would like to note that at the time of this audit the founder and executive director of
OSKC, Diane Millich,                                                                    , and was
unavailable to participate in the audit due to health                    . The acting director was
not in a position to respond to the auditor's questions regarding Grant Number: 2007 -IW-AX-
0005 since she had not worked with the organization during the grant period ..

OSKC's response to the draft audit will follow the same format as the report to allow for OSKC to
comment on some of the conclusions/generalizations made in the: Internal Control Environment,
Drawdowns, Grant Expenditures and other areas.

                             Internal Controls - page 4 of the Draft Audit:

The first point is correct in stating that the former director resigned in April 2012 and the Acting
Director only had been in the position for two months which limited the Acting Director's
knowledge of the past operating procedures and struggled to provide information to the auditor.
However, this statement does not share the fact that the Former Director Diane Millich was forced
to resign per OVW administrator, Kathy Howkumi, due to her illness and denied by OVW_
               despite OSKC policy allowing this benefit. She was • • • •            I!!1••
                                                                                       !111l11111l11111iiiiiii
                                   and could not be weakened by constant calls to clarifY OSKC's
internal control procedures.


                                                                                                            2




                                                    52

The Acting Director, her sister Dedra White, had returned from University of Denver working on
her Juris Doctorate and believed that the victims of domestic violence needed to have Our Sister's
Keeper to call for support in the time of crisis. At this time of organizational crisis, Ms. White
contacted OVW and informed them of the change in leadership and asked assistance to bring her
up to speed in grant management protocol. However, there was no OVW assistance to ensure that
this unplanned transition in leadership went as smoothly as possible. If OVW provided standard
templates for personnel records, monitoring of contracts and client intake form checklists to the
Acting Director or available on their website for other Tribal Coalitions, much of these questions
may have never arisen and been questioned in this audit or audits for other OVW grantees.

The second point questioned who was on the Board of Directors. The first paragraph on Page 5
continues to elaborate more on the auditor's conclusions about the Board of Directors. It seemed
that the auditor and possibly others that review this audit might not fully understand the Native
culture of living and volunteering on an Indian Reservation. Reservations provide a limited
number of people to participate on a Board of Directors. Although the auditor states, "the board
leadership did not appear to have backgrounds consistent with the skills and knowledge required
for their positions", he did not review the Boards' resumes which would have demonstrated that
the m.yority of the members had Masters or Bachelor Degrees in the Health and Human Services
or related field.

Since a Tribe's primary goal is to provide benefit to the Tribal Members, over 50% of the people
on a Reservation are related either through family or adopted as family. The auditor highlights
that the Board's Treasurer's daughter was also on the Board. The daughter was recruited to
provide input on challenges with dating violence and issues pertaining to the youth which is one of
DOl's target priorities. Since she was under 18, her input strengthened OSKC's response to
dating violence issues. The auditor questioned why the previous Director's ex-husband was on the
Board. He is a Southern Ute Tribal member and his input was important and his role in the
community demonstrated his commitment to stop domestic violence providing an important role
model for other Indian men and youth.

Although it would have been ideal to have an accountant in the Treasurer position, there are a very
limited number of accountants that were not already busy helping other non-profits. If the DO]
Grant Manager had allowed for a reasonable percentage of the grant to be used for accounting
services, this gap would have been easily resolved with an independent accounting firm that would
have been there to ensure that standard accounting procedures were followed. Many Tribes have
an improved Indirect Cost Agreement (IDC) that allows for IDC to be charged to the grant which
allows for the financial division to assist with meeting all of the requirements of Federal Grant
Management. Since many small non-profits do not have an approved IDC Rate, DO] should
consider allowing grant funds to pay for accounting services to ensure approved accounting
procedures are followed.

OSKC's agrees with the third statement that ATM withdrawals of cash to pay grant expenditures
should not have occurred and has remedied the situation by adopting a financial management
policy to ensure this does not happen in the future.

The auditor's fourth point states that OSKC's followed their financial policy to require W-9 forms
and agreements before a contractor could begin work, the policy did not have a monitoring policy

                                                                                                 3




                                               53

in place. OSKC is currently updating the sub-contracting monitoring procedures and will
implement this in the near future.

Although DO] OVW had approved the format of the Coalition's Financial Policies in 2007,
OSKC Financial Management Policy, Vol. 1, OVW did not notify OSKC' s that the policy was
lacking a monitoring policy. The former Executive Director stated that Healing Hearts and other
contractors provided a monthly report that was reviewed before their invoice was paid. Thus, the
Director ensured that the work that stated in the agreement was completed.

The auditor's fifth point states that OSKC had no segregation of duties. At the time of the audit,
the Acting Director was the only employee. Since DO] had frozen the grant funds in May 2012,
there was not enough funds and little assurance from DO] that they would unfreeze the account to
pay for employees. In fact, the DO] Grant Manager had said that the Acting Director could not
even be paid because she was a family member even though she had a Masters Degree in
Counseling Psychology. Once Ms. Howkumi stated this, Ms. White did not accept any more
paychecks and has been working on a volunteer basis. She asked DO] how the grant should be
reimbursed, but no formal response was given. Thus, the Acting Director continued to pay the
rent, supplies, accountant fees, conference materials, constant contact, promotional items and the
hotline phone bills from her own personal account which offset the salary that she had received.
The organization could not recruit someone to fulfill the position since the DO] funding had been
frozen. To sustain the program, the Acting Director stepped in to assist with paying the rent to
ensure that the victims still had an organization to tum to in times of crisis.

                             Drawdowns - page 5 of the Draft Audit:

Although OSKC has not had time to go through every item listed in this draft audit due to the
limited time to comment, it is unclear how the DO] /GMS would have allowed more funds to be
drawn-down than what was shown on the financial reports. After reviewing this comment with the
former Executive Director, she showed the Acting Director each drawdown file showing how all of
the invoices and supporting documents were clipped to each excel spreadsheet documenting the
total amount expensed and the amount to be drawn down.

This will be further reviewed when OSKC works with DO] on the audit follow-up. Once again,
there are comments about the general ledger not aligning with general accounting procedures
which would have not occurred if an accountant was an eligible cost for DO] funded grants
especially if an organization was not claiming Indirect Cost in the budget.

                         Grant Expenditures - page 6 of the Draft Audit:

Personnel and Fringe Benefits: Although there were several challenges discussed in the personnel
and fringe benefits category, OSKC had originally contracted with a personnel agency ASAP
Accounting and Payroll Services to ensure that these items were completed properly for the first
two grant periods. The questioned personnel costs are in the time period for the third grant.
Contracting with ASAP was now considered an ineligible cost for the third grant period thus
leading to less perfect time data. With ample time, the items listed can be evaluated and all the
required documentation will be provided.


                                                                                                4




                                               54

The draft audit attachment Appendix III list 57 unallowable and unsupported personnel
transactions. Appendix III has been modified with additional columns to help clarify OSKC's
responses. Several items listed in the Personnel section were approved DO] Grant Budgeted items
like the Executive Director's and the Community Coordinator's position. These were eligible costs
but additional back-up documentation will be provided to remedy these items and have the
information properly documented. Once again, if basic templates were provided on the OVW
website , these errors would not have occurred and a lot of valuable staff/volunteer time could have
been spent helping the victims than trying to guess how OVW and the auditor wanted the
informatio n.

OSKC has internal control in place that required the Board of Directors to approve all payroll
transactions before the paychecks were issued. The Director did not sign the paycheck until the
Board approved. At a DO] training meeting in Tucson after several years of the grant, Ms.
Howkumi told Ms. White that the Executive Director was not allowed to sign her own paychecks.
After this was noted by DO], OSKC changed the procedure to have the Board Treasurer or other
Board member sign the paychecks.

                           Other Direct Costs - page 9 of the Draft Audit:

The primary goals and budget items approved in the grant were for emergency services for victims,
staff salary, rent, hotline phone bills, and consultants to assist in training and providing services to
the victims. The direct cost comments appear to be based on a bias opinion than on fact as stated
in the audit's procedure section.

The auditor states that some of the expenses occurred during unbudgeted periods. Staff recently
reviewed the GANs on the GMS website for this grant and it primarily had GANs stating that the
supplemented budget could not be spent until the budget was approved. However, there does not
appear to be follow-up GAN s that state the final approved budget. The GAN s primarily stated
that no funds could be drawn at that time and the organization may not be reimbursed if that
particular budget item is not approved.

The time period between grant application submittal and final release of the budget is quite lengthy
making it difficult to pay staff on a regular basis and continue to provide services. Once the budget
was available, OSKC should have been allowed to claim the expenses within that grant period that
could not have been drawn down because they were waiting on DO] to release the final budget.
What was OSKC supposed to do, tell the landlord and the hotline phone provider ATT that they
could not pay the bills until DO] finally approves the budget?? Thus, if these items were eventually
approved as an eligible budget item within the grant period for each supplement, these invoices
should be considered an eligible direct cost.

Thus, the rent bills, payroll taxes to IRS and the State of Colorado, ATT bills, the $50 emergency
services to the victims should all be considered eligible costs. When the auditor placed them in
the unsupported and unallowable categories it makes it look like the items were not even
consistent with the grant budget. If there was a specific format or checklist of items that should be
included for each of the invoices, it would have been helpful for DO] to provide that information
to all Tribal Coalitions. The performance reports were still required doing these time periods and
documented assistance was being provided. But the DO] Grant Manager continued to approve

                                                                                                      5




                                                  55

the performance reports and did not state that OSKC should not be providing services or
maintaining the hotline while waiting on the approved budget.

One of the most shocking sections of this audit is his accusations that grant documentation
identified indicators of personal use including the following OVW grant funded transactions that
were questioned: $54 was paid for lodging at Wolf Creek Ski Lodge, which is located near a ski
area 2 hours from OSKC. If the Executive Director was not                                when this
audit occurred, she would have explained to Mr.               that they had driven a victim to the
Colorado Springs Safehouse to protect her from a man who was later convicted of murder.
Instead of putting the victim on a Greyhound bus, they provided a safer transport method. On
their return trip to Durango, they attempted to drive their Subaru over the Wolf Creek Pass.
However, Wolf Creek Pass was closed due to snow and they were forced to stay in a hotel and
drive the extended route south of the pass into New Mexico to make it safely home the next day.
This expense was charged to a grant funded by the Southern Ute Indian Tribe, and has been
noted in the general ledger. (Please see attachment of the documentation.)

The next point highlights an $87 bill for shoes. Since the auditor and many people may have not
personally experienced domestic violence, they may not realize that your survival skills force you to
escape as quickly as possible. In some cases, you may forget your child's shoes. All you care
about is you and your child's survival. This was considered an eligible cost in the Director's mind
since children feel better when their feet are warm. Since this item was questioned, the amount
was reimbursed from a donation.

The Director had lived through domestic violence and understands the deadly predicament a
victim experiences and felt this was an eligible cost for the grant. There is no reason the Director
or anyone else would utilize grant funds for their own personal use. They understand that the
victims have basically nothing at the time they come to OSKC for help and would never consider
misusing the funds that are so desperately needed by the Native American victims.

Now that the former Executive Director is                       , OSKCs can work with OVW to
demonstrate the required information and correct the ledger. It is unfortunate that the Executive
Director was not available during the audit and the auditor did not attempt to request additional
information before this draft audit was released. It is also unfortunate that an accountant could not
have been an eligible grant cost which would have had someone that had a degree in accounting to
take care of the ledger and books. This is a common problem with many non-profit organizations
because they are initiated by a group of caring individuals who believe in the mission but do not
have all of the accounting skills. Many of the ledger issues could have been avoided if OVW
provided practical training sessions instead of sessions focusing on how to make a poster or update
your web page.




                                                                                                   6




                                                56

            Program Perlonnance and Accomplishments - Page 17 of the Draft Audit:

Sustainability: It appears that OSKC is not the only Tribal Coalition that had sustainability
challenges. How many of the original Tribal Coalitions are still actively in existence? The amount
has significantIy decreased. If it was the mission of the OVW Tribal Domestic Violence and
Sexual Assault Coalitions Grant Program to support the development and operation of nonprofit,
nongovernmental tribal domestic violence and sexual assault coalitions, it appears tIlat the OVW
has failed in meeting their goals. When it takes almost a year to get an approved grant budget,
practical training is not provided and no site visits occurs how are the Coalitions supposed to be
sustainable? When assistance was requested by the OSKC Acting Director and no guidance is
given, whose fault is it?

As stated earlier, the progress reports and financial reports submitted were always approved with
the exception of one perlormance report requesting some changes. Thus, OSKC thought they
were meeting tile grant requirements because they demonstrated in the performance report that
the grant objectives were being met. But to have an audit performed when the founder is
                             almost makes one suspicious that the agency was attempting to put
anotIler Tribal Coalition out of business impacting tile Tribal victims witIl anotIler blow. As tile
former Director and Acting Director were preparing the responses to this audit, the former
Director was able to pull up sign-in sheets for training that occurred such as the Blanding Police
Department Cultural Training and others. This information was there, it is just the Acting
Director was not intimately familiar with the electronic and hard copy files.

                         Perlonnance Issues - Page 19 of the Draft Audit:

Once again, the second paragraph on Page 19 appears that the auditor was not aware of the
challenges and the extent of domestic violence programs. Quoting from this paragraph, ''We
noted that OSKC's application for Supplements Oland 02 contained duplicated objectives,
indicating that earlier objectives had not been completed." This grant program is not like a capital
program, you install playground equipment and tIlen tile project is completed.

According to tI1e Office of Violence Against Women website, American Indians are 2.5 times
more likely to experience sexual assault crimes comared to all other races, and one in tI1ree Indian
women reports habving been raped during her lifetime. Domestic violence is a learned behavior
and is prevalent in Indian Country due to the negative impacts of tI1e boarding schools taking
children from tIleir families and showed that it was acceptable to be beaten.

Domestic violence cannot be resolved in one grant cycle. You have to reach generations of the
population to ensure that tI1ese travesties are not continued in a population. If the auditor had
been more familiar with Domestic Violence programs, he would realize tI1at you have to continue
to educate different people in the community. Police Officers and tI1e Health Departments are
always hiring new eIIlployees that do nol understand dOIIlestic violence issues especially in the
Native community. Thus, having similar trainings allows you to reach everyone that may come in
contact with a victim, their children or even be a batterer tI1emseives.

The fiftI1 paragraph on Page 19 also makes an unfounded accusation about tI1e former Executive
Director. It states, "During our fieldwork, the grant-funded youth hotIine phone was in use m

                                                                                                   7




                                                57

Chicago by the former director as a personal phone. We informed the acting director that this was
an unallowable use, and the phone was returned." When this comment was discussed with the
former Director, she stated that she had plenty of time recovering in the Chicago hospital and
could still respond to calls for assistance on this hotline. When a victim is in trouble, they need
someone to talk to that understands their problems. She had her own personal phone that she
used for her personal calls and had dIe hotline phone to help people. The hotline phones are cell
phones so they can be carried with a volunteer or staff member 24 hours a day to help the victim
when needed. Basically, the auditor did not base this conclusion on any facts by reviewing phone
numbers or any other data.

                              Conclusion page 20 of the Draft Audit:

The purpose of this audit was to determine whether reimbursements claimed for costs under the
grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines,
terms and conditions of the grant and to determine prograuI performance and accomplishments.

The audit presents a picture that OSKC did not follow grant guidelines and did not meet its goals.
This is not the case. When you review the amended Appendix III that listed all of the
unsupported and unallowable direct costs, you will see that the items were consistent with the
approved grant budget. The Executive Director and the Community Coordinator were allowable
costs, the rent, the phone bill and the basic $50 emergency services were allowable as well as the
contractors. This non-profit and many of the Tribal coalitions are grassroots survivors of domestic
violence. If OSKC saved lives, provided a voice on the other end of the phone to help a victim
save their children, educate people who do not realize that these horrible acts happen in their
community and give them methods to help solve iliis problem, then the objectives are met but can
never be fully accomplished until this learned behavior is eradicated from the community.

If additional time is provided and now that the former Director is in remission, the information
could be provided that shows an immense amount of good was provided. It is a shame that the
financial mana"oement skills and templates of forms and procedures that an audit would review was
not provided to OSKC and other Tribal Coalitions. Unfortunately, the worst impact of this audit
and audit of other Domestic Violence Coalitions is hurting the people who really cared about
helping the victims.

 The Board of Directors and volunteers of the Tribal Coalitions witness terrible challenges in their
community and are the ones who can really help. OSKC recommends that OVW should look at
how they could have assisted these organizations to truly help their communities instead of
publishing these accusations. The real problem is no one provided the capacity and skills for the
Coalitions to really help their communities and be successful as a non-profit so they can continue
the mission to protect the victims.

If the Tribal Coalitions cannot receive additional assistance because of these audits from other
funding sources, the OVW Tribal Domestic Violence and Sexual Assault Coalitions Grant
Program have significantly hindered the healing of our Indian communities.




                                                                                                  8




                                                58

OSKC does have disagreements with the auditor's findings and recommendations. However, there
are some instances that we do agree with the recommendations of the findings. OSKSC would like
to provide clarification on a number of instances in this audit that are void of fact or need
clarification.

OSKC response to the recommendations to the OVW:

       1. Ensure that OSKC has a policy to account for OVW grant expenditures and funds
          separately from other funding sources.


Response: OSKC's Acting Executive Director/Volunteer and Board of Directors have met and
have concluded that the current Wells Fargo bank account will be used only for Department of
Justice/OVW Grant Number: 2007 -IW-AX-0005. This practice has already been approved since
the end of the audit. Bank charges that are unallowable costs will be duly noted in the general
ledger with documentation that they were expenses not paid from the grant. This would include
bank fees for the account not approved by the OVW approved budget.

The Acting Executive Director did not tell the auditor that the funds were commingled as stated in
the draft audit. OSKC did/does have a current general ledger that was updated by an accounting
firm. Thus, the lack of familiarity with OSKC operating procedures of the Acting Director at the
time of the audit did not convey a sound financial and internal control of grant funds. APSA
accounting provided accounting services to OSKC for both personnel and grant expenditures was
not interviewed for this audit per request of the auditor.

      2. Ensure that OSKC's documented internal controls are in accordance with grant
         guidelines and are followed by OSKC management and personnel.

Response: OVW was aware that the previous Executive Director had a terminal illness, but did
not offer any technical support to the Acting Executive Director despite numerous calls for
assistance and clarification. OVW did not offer training to the Acting Executive Director, despite
"freezing" their funds that included tribal coalition trainings. OVW official and training consultant
did approve one training to be reimbursed to the Acting Director, however, personal or agency
funds were not available for this training. In November 2012, Acting Director went to training and
met with OVW official who directed her not attend any more OVW sponsored training since
OSKC's funds had been "frozen". OVW did not provide adequate training for the fiscal aspects
of the grant and how to secure policies and procedures that would ensure compliance in the event
of an audit. The Acting Director did attend two OVW trainings, only one of the trainings was
specific to audits but was not useful because a panel of Executive Directors described their
experiences but did not offer anything tangible for other non-profits to use.

However, OSKC does agree that OSKC management and personnel must follow these guidelines.
The Acting Executive Director has already attempted to create policy and procedure around more
sound practices; 1) No ATM cash transactions, 2) No cash transactions for payment of any
services, 3) Only signed and documented time sheets will be processed, 4) If possible, an
accountant will be recruited to serve as treasurer and/or the Acting Executive Director should
attend quickbooks and other financial management training.

                                                                                                   9




                                                59

      3. Ensure that grant funds are only used for grant expenditures.

Response: OSKC agrees with this recommendation because it has been OSKC's policy. OVW
grant funding was used to assist domestic violence victims and meet the goals and objectives of
Grant Number: 2007-IW-AX-0005. OSKC uses grant funds only for grant expenditures. The
problem was that unintentional errors were made in the accounting process and that general ledger
entries did not reflect those changes. OSKC does not agree with the audit that OVW funds were
used for personal use. OSKC made sure that any unallowable costs were reimbursed from other
funding sources. OSKC did use excel spreadsheets every month to track the budget and kept all
documentation of expenditures by month.

In previous OVW grant cycles accounting services was an approved and allowable cost. However,
OVW did not issue a GANS to OSKC for final approved budget despite correspondence from
OVW regarding the deletion of accounting services.

Most recently OSKC has identified significant areas of financial policy that will be revised including
but not limited to the following: 1) authorization of all checks, 2) ATM withdrawals, 3) personnel
time sheets/approval, and 4) contract approval and monitoring.

                    4. Remedy the $16,514 in drawdowns in excess of expenditures.

Response: OSKC does not agree that $16,514 identified by the auditor was in excess of
expenditures. OSKC used drawdowns based on cost reimbursement. OVW funds were not
available for FY 2011-2013 until February, 2012.

                           5. Ensure that drawdowns are accurately recorded.

Response: OSKC does not agree that drawdowns were not accurately recorded. OSKC did submit
FFRs to OVW through the GMS. OSKC has researched correspondence on the GMS in
response to FFR inaccuracies from OVW and has not been able to find any notice of inaccurate
FFRs. However, with more time OSKC can work with OVW to address this discrepancy and will
ensure that FFRs, drawdowns, and general ledger documentation are correct and free of
.        .
InaccuraCle s.

                6. Remedy the $64,292 in unsupported personnel expenditures.
Response: OSKC does not agree with $64,292 in unsupported personnel expenditures. OSKC has
implemented practices to ensure proper allocation of grant funds for salaries of employees who are
funded by more than one grant. Further, OSKC has previously outlined that much of the
unsupported personnel expenditures were minor accounting errors and agree that accounting
services were being provided to ensure that all personnel expenditures were duly noted per the
grant.

Personnel policies and procedures are currently being revised where employees will use an
electronic system of tracking hours and documentation of employee signatures will be obtained
prior to payment. Signatures of both the Executive Director and Board of Director Treasurer will

                                                                                                   10




                                                60

be required for payroll. All monthly personnel expenditures and documentation will be reviewed
by the BOD bi-monthly for monitoring. A new time sheet was instituted in February, 2012. OSKC
could track hours and funding sources more efficiently. (This is in response to the auditor
suggesting that there were other time sheets than what he obtained in his field work.)

Again, please note that the Acting Director was only approved by OVW three weeks prior to the
audit and did not possess enough knowledge to properly submit documentation. OSKC will
provide personnel documentation for each of the listed unsupported expenditures.

                    7. Remedy the $12,632 in unallowable personnel expenditures.

Response: OSKC does not agree with $12,632 in unallowable personnel expenditures. The Acting
Executive Director is the sister of the past Executive Director and was in a position to purchase
and take over all the aspects of the non-profit due to her sister's terminal illness. (The medical
opinion of past executive director condition at the time of this audit was terminal.) OVW was
made aware of this relationship and approved the Acting Director through Grant Management
Services (GMS) and Grant Award Notification (GAN). Further, all personnel expenditures have
been reimbursed as stated earlier to DO] since OVW did not authorize and approve the Acting
Director as an employee through GANS until August 2012.

                   8, Remedy the $92,914 in unsupported direct cost expenditures,

Response: OSKC does not agree that $92,914 is unsupported direct cost expenditures. All
expenses were directly related to the goals and objectives for Grant No. 2007-IW-AX-000S.
OSKC did provide to the auditor related support documentation that showed "allowable" support
for some of the costs during the site visit. OSKC is being asked to provide this documentation
again to support direct cost expenditures. Documentation will be provided to OVW detailing all
other questioned costs. Please see the attached table, Appendix Ill.

                    9. Remedy the $23,046 in unallowable direct cost expenditures,

Response: OSKC does not agree with the $23,046 in unallowable direct cost expenditures. OSKC
did follow the approved final budget for these expenditures. The OVW financial guide allows a
10% budget modification without submitting a GANS to OVW.

                       10. Ensure that a policy is in place for expenditures to be
                 recorded completely, accurately, and with supporting documentation,

Response: OSKC does not agree that expenditures were not recorded completely, accurately, and
with supporting documentation. Again, OSKC Acting Director may not have had the experience
or history to effectively demonstrate that OSKC had policies and procedures were in place to
accurately account for all DO] expenditures. OSKC does have financial management policies in
place and uses electronic data bases for all expenses. Previous to electronic formats OSKC relied
on pen/paper accounting methods to archive expenditures.




                                                                                               11




                                               61

        11. Ensure that a policy is in place to fully docwnent and effectively monitor contractors.

Response: OSKC does have a policy in place to fully document and effectively monitor
contractors. OSKC requests that all contracts be approved by the BOD and that all contractors
must submit a monthly report that includes the following; 1) the number of allowable clients
assisted and services provided 2) the demographic information for clients 3) invoice of individual
client services. OSKC contractors were identified and approved by OVW as evidenced by the final
version of the budget. OSKC maintained records and correspondence with the contractors to
verify that goals and objectives of the grant were being met.

               12. Ensure that a policy is in place to adequately track grant expenditures to
          the approved budget.

Response: Policies and procedures have been in place as evidenced by the OSKC Financial
Management Policy approved by the Board of Directors and presented to the auditor. OSKC
actively documents all expenses and works diligently to properly authorize . record expenses.
document in accounting records. and archive all receipts/invoices. The general ledger has been
updated hy an accounting firm and continues to work on any errors within the general ledger that
was inadequately tracked.

Further. OSKC waited approximately six months for the 2011-2013 budget to be approved by
OVW. OSKC was documenting and recording potential allowable costs to the DO] grant during
this time for reimbursement

                        13. Ensure that FFRs are submitted timely and accurately.

Response: OSKC agrees that all FFRs are submitted timely and accurately. OSKC was not aware
that previously submitted FFRs had any inaccuracies since each FFR submitted in the Grant
Management System (GMS) was approved by OVW. OSKC did not receive any correspondence
from OVW through GMS that the reports were not accurate. This lack of communication through
the GMS from OVW gave OSKC the false impression that the FFRs submitted were free from
any discrepancies. OSKC agrees that FFRs will be submitted timely and to ensure that time
management tools will be used to promote proficiency.

                         14. Ensure that ProgreSS Reports are submitted timely.

Response: OSKC agrees that all progress reports are submitted timely. OSKC will again use time
management tools to effectively ensure that time constraints will be adhered to per grant special
conditions. OSKC will gather pertinent information using a data base that is being considered to
assist in this activity.




                                                                                                  12




                                                62

~
r   "U"
          Qur Sis. . r's. Kee.per
                  te
          CoaUtiOli'le In. .
           .              c
                                          I   A Tribal Coalition Assisting Survivors
                                              ofFamily Violence flnd St'Xual Violence
,

    Our Sister's Keeper Coalition would like to thank you It)r allowing the non-prolit an opporlunity to
    respond 10 Ihe dran audit and the recoml1lendatiom. OSKC would have appreciated more time (0
    lully respond to the 51 page document and extensive accounGng associated with the lin dings.
    OSKC is willing to work wilh OVW 10 provide all essenlial inIon nation needed to remedy all
    lindings and recommendations and (0 liJllill the grant goals and ol~jectives or the h'Tant in helping
    American Indian WOlllCU access to dOllles ti c violence services. OSKC appreciaLes OVW funding
    lo serve viclims of dOll1Cstic violence on the two Colorado Indian Reservations, Southern Ulc and
    Ule MOllnlain t lle, and look forward to improving our systems lo beller enhance services to
    American Indian WOlllCI1.



    'IJt'k you, l/I  rtf:
    Cii1ifKl~~lmirwoll1: l l l
    Our Sister's Keeper CoaliGon, Inc.




           p.o. Box 3416, Durango, CO 81302 ' HOTLINE, 970-247-7888 ' ADMIN , 970-259-2519




                                                  63

                                                                                      APPENDIX V

 OFFICE ON VIOLENCE AGAINST WOMEN RESPONSE




                                                          U.S. Department of Justice
                                                          o.ffice on Violence Against Women
                                                           Washington . D.C. 20530




                                                      November 20, 2013



MEMORANDUM


TO:                            David M. Shceren
                               Regional Audit Manager
                               Denver Regional Audit Office

FROM:                          Bea Hanson  ,~'t-­
                               Acting Director
                               Office o n Violence Against Women

                               Rodney Samuels      ~
                               Audit Liaison/Staff Accountant
                               Office on Violence Against Women

SUBJECT:                       Response to the Draft Audit Report - Audit of the Office on
                               Violence Against Women Grants Awarded to Our Sister's Keeper
                               Coalition


This memorandum is in response to your correspondence dated September 18, 20 13 transmitting
the above draft audit report for Our Sister's Keeper Coaliti on (OSKC). We consider the subject
report resolved and request written acceptance of this action from your office.

The report contai ns nineteen recommendations, $157,206 in unsupported costs, $35,678 in
unallowable expenditures, and $ 16,514 in drawdowns in excess of expenditures. T he Office on
Violence Against Women (OVW) is committed to working wi th the grantee to add ress each
recommendation and bring them to a close as quickly as possible. The fo llowing is our analysis
of the audit recommendations.

      I) Ensure that OSKC has a policy to account for OV\V grant expenditures and funds
         separately from other funding sources.

         OVW does agree with this recommendation. We will coordinate with OSKC to ensure
         that they have a policy to accoun t for OVW grant expenditures and funds separately from
         other funding sources.




                                               64

2) Ensure th at OSKC's documented in ter na l controls are in accordance with grant
   guideli nes :l nd arc followed by OSKC management and personnel.

   OV'v"! does agree with the recommendation. We wi ll coordinate wi th OSKC to ensure
   that the ir documented internal controls are in accordance with grant guideli nes and are
   followed by OSKC management and personnel.

3) Ensure that grant funds are only used for grant expenditures.

   OV\V does agree with the rccomme ndnt ion. We will coordinate wi th the OSKC to
   develop policies an d procedures to ensure that cumulati ve drawdo wns do not exceed
   cum ulative expenditures.

4) Re med y th e $16,514 in dnlwdo wns in excess of expenditures.

   O VW does agree with the recolllmc.::ndalio ll. We will coord inate with the OS KC to
   remed y the $ 16,5 14 in drawdowl1s in excess o f ex pendit ures.

5) Ensure that drawdowns arc accurately record ed .

   O VW does agree with the recommendat ion. We will coordinate with the OSKC to
   c.::nsUJ"t' that dmwdowns are recorded acc urate ly.

6) Remedy the $64,292 in unsup ported personn el expenditu,·es.

   OV W does agree with the recommendation. We will coo rdi na te with OSKC to remedy
   the $64 ,292 in unsupported personnel expenditures.

7) Remedy the $12,632 in unallowable personn el expenditures.

   OVW docs agree with th e recommendation . We will coordinate with OSKC to remed y
   the $12,632 in unallowab le personnel ex penditures.

8) Remedy th e $92,914 in unsupported direct cost expenditures.

   OVW docs agree with the recommendation. We wil l coordinate wit h OSKC to remt!d y
   the $92,91 4 in un supponed direc t cost expenditures.

9) Re medy the $23,046 in unallowable direct cost expenditures.

   OVW does agree with the recommendation. We will coordinate with OSKC to remedy
   th e $23 ,046 in unallowable di rect cost expendi ture s.




                                           65

10) Ensure that a policy is in place for expenditures to be recorded completely.
    accurately, and with supporting documentation.

   OVW does agree with the recommendation. We will coordinate with OSKC to ensure
   that a policy is in place for expenditures to be recorded completely, accurately, and with
   supporting documentation.

II) Ensure that a policy is in place to fully document and effectively monitor
    contractors.

   OVW does agree with the recommendation. We will coordinate with OSKC to ensure
   that a policy is in place to fully document and effectively monitor contractors.

12) Ensure that a policy is in place to adequately track grant expenditures to the
    approved budget.

   OVW does agTee with the recommendation. We will coordinate with OSKC to ensure
   that a policy is in place to adequately track grant expenditures to the approved budget.

\3) Ensure that FFRs are submitted timely and accurately.

   OVW does agree with the recommendation. We will coordinate with OSKC to ensure
   that FFRs are submitted timely and accurately.

14) Ensure that Progress Reports are submitted timely.

   OVW does agree with the recommendation. We will coordinate with OSKC to ensure
   that progress reports are submitted timely.

15) Ensure that Progress Reports are supported by verifiable source documentation.

   OVW does agree with the recommendation. We will coordinate with OSKC to ensure
   that Progress Reports are supported by veri fiable source documentation.



16) Ensure that OSKC has a policy for continuity of operations and organizational
    sustain ability.

   OVW does agree with the recommendation. We will coordinate with OSKC to ensure
   that they have a policy for continuity of operations and organizational sustainability.

17) Ensure that OSKC has a policy to adequately document grant program
    performance metrics.

   OVW does agree with the recommendation. We will coordinate with OSKC to ensure
   that they have a policy to adequately document grant program perfonnance metrics.




                                           66

     18) Ensure that OSKC meets grant performance goals and objectives.

        OVW does agree with the recommendation. We will coordinate with OSKC to ensure
        that they meet grant perfonnance goals and objectives.

     19) Ensure that OSKC has a policy for following grant special conditions.

        OVW does agree with the recommcndation. We will coordinate with OSKC to ensure
        that they have a policy for following grant special conditions.


We appreciate the opportunity to review and comment on the draft report. If you have any
questions or require additional infonnation, please contact Rodney Samuels afmy staff at
(202) 514-9820.

cc    Angela Wood
      Accounting Officer
      Office on Violence Against Women (OVW)

      Louise M. Duhamel, Ph.D.
      Acting Assistant Director
      Audit Liaison Group
      Justice Management Division

      Lorraine Edmo
      Associate Director, Tribal Unit
      Office on Violence Against Women




                                              67

                                                             APPENDIX VI

              OFFICE OF THE INSPECTOR GENERAL

             ANALYSIS AND SUMMARY OF ACTIONS

               NECESSARY TO CLOSE THE REPORT


      The OIG provided a draft of this audit report to the Office on Violence
Against Women (OVW) and Our Sister’s Keeper Coalition (OSKC). The
OVW’s response is incorporated as Appendix V and the OSKC response is
incorporated in Appendix IV of this final report. The following provides the
OIG analysis of the responses and a summary of actions necessary to close
the report.

Analysis of OSKC Response

     In its response to our draft report, OSKC made general statements
and provided attachments that we believe need to be addressed.

      Significantly, OSKC made numerous statements indicating that the
OIG did not attempt to request additional information related to our findings
before this draft audit report was issued. We strongly disagree with these
statements. The OIG conducted fieldwork August 27 - 30, 2012, and
September 24 - 28, 2012. In addition, from the end of fieldwork until the
draft audit report was issued, the OIG requested additional information from
OSKC during 18 phone and email contacts. Also, except for a few follow-up
questions in February 2013, OSKC stated it had no contact with the OIG
from the end of fieldwork on September 28, 2012, through October 29,
2013. We disagree. OSKC contacted the OIG by phone 4 times after the
end of our September 2012 fieldwork, leaving voicemail messages twice in
February 2013, and twice on October 29, 2013, after the draft report had
been issued. In all instances, the OIG responded to OSKC voicemail
messages within 3 days.

      OSKC also stated that the OIG emailed the draft report to OSKC
without first calling OSKC. We attempted to contact OSKC by email and
phone on September 17, 2013, to schedule an exit conference and notify
OSKC that the draft report was completed. The email address for the OSKC
point of contact was still in service, but OSKC did not respond to our email
and OSKC’s office phone number was no longer in service. As a result, we
issued the draft report on September 18, 2013. OSKC responded that it did
not receive the draft report until October 18, 2013, because it was unable to
access the Internet prior to that date due to a move in a rural location, and
OSKC did not realize that OIG does not send hard copy reports by mail.

                                      68

However, the OIG informed OSKC during and after fieldwork that the draft
report would be issued via email.

       In its response, OSKC stated that it has always had sound financial
management policies and procedures based on federal and state guidelines.
However, as we stated in the Internal Control Environment section of this
report, OSKC did not have documented policies for payroll or competitive
procurement, and permitted cash withdrawals of grant funds using an ATM
card. OSKC also had related parties in leadership positions, including board
members related to each other and to OSKC’s director. OSKC stated in its
response that Native American reservations provide a limited number of
people to participate on a Board of Directors. Durango, Colorado, is a town
of nearly 17,000 people that includes a university and is not located on
Native American lands. We believe Durango’s population and demographics
should allow for unrelated board membership, and it is our continued opinion
that related parties in leadership and oversight positions creates a weakness
in internal controls.

      OSKC further stated that the OIG’s questioned direct costs “appear to
be based on a bias [sic] opinion [rather] than on fact . . . .” OSKC’s
statement appears to be a misinterpretation of the facts stated in this report
and of the grant supplement process. We did not question the referenced
expenditures due to bias or for any lag between expiration of the grant and
supplement and the approval date of the next supplement; rather, we
questioned the expenditures because they were not included in the approved
grant budget for the period in which the transactions occurred or were
incurred before the budget was approved.

      Regarding grant reporting, OSKC stated that its progress reports and
financial reports were approved by the OVW, and therefore OSKC thought it
was meeting grant objectives. We note that the OVW’s acceptance of a
report generally does not include verification of the accuracy of the reports
submitted since the OVW does not require grantees to provide accounting
records or other supporting documentation necessary to determine the
accuracy of the financial and progress reports.

       Regarding our finding that the applications for Supplements 01 and 02
contained duplicated objectives, OSKC responded that was because “the
auditor was not aware of the challenges and the extent of domestic violence
programs.” However, as stated in the report, our finding was based on the
fact that OSKC's applications for Supplements 01 and 02 contained
duplicated objectives, indicating that earlier objectives had not been
completed. Further, during our review of the grant applications, we noted


                                     69

that Goals 1 through 5 all had objectives that appeared in both Supplements
01 and 02, but with different timelines.

       Further, OSKC stated that the audit report “makes an unfounded
accusation” related to the former director’s use of the hotline cell phone
while obtaining medical treatment in Chicago, 4 months after the former
director had resigned. OSKC’s acting director told us that there were two
cell phones paid with OVW grant funds; one phone was used by her for the
adult victim hotline and the youth hotline phone was being used by the
former director during her medical treatment in Chicago, and that it was not
being used for the youth hotline at that time. We informed OSKC’s acting
director that the phone must be returned to OSKC and used as intended by
the grant program. The phone was returned to OSKC’s acting director
before the start of our second week of fieldwork.

       OSKC also stated that it felt that OVW “was attempting to put another
Tribal Coalition out of business” because the audit was performed while its
former director was undergoing medical treatment. We notified OSKC of this
audit in July 2012, which was 3 months after OSKC’s former director had
resigned. Additionally, we explained to OSKC that OIG was conducting the
audit of OSKC, and that OIG and OVW were separate agencies.

       OSKC’s response included a 35-page attachment to demonstrate that
many of the expenses were consistent with the grant budget. OSKC noted
that due to “a very limited amount of time to respond” to the draft report, it
marked expenditures as “TBD” so that they could be reviewed by OSKC at a
later time. The OIG provided OSKC with 65 additional days beyond the
OIG’s standard 21-day response deadline to respond to the draft report.

      We found that the additional information in the attachment did not
address the questioned costs identified in this report and that OSKC did not
provide any documentation to support that the grant funds had been
reimbursed or charged to a different funding source. As a result, we
consider all of the questioned costs identified in this report as unallowable or
unsupported.

      OSKC also attached 13 pages of statements, quotes, receipts,
assistance applications, copies of checks, and handwritten notes. However,
OSKC did not provide an explanation of the purpose of these documents. As
a result, the documentation did not provide adequate support for any
questioned expenditures.




                                      70

Summary of Actions Necessary to Close the Report

1.	   Resolved. The OVW concurred with our recommendation to ensure
      that OSKC has a policy to account for OVW grant expenditures and
      funds separately from other funding sources. The OVW stated in its
      response that it will coordinate with OSKC to ensure that they have a
      policy to account for OVW grant expenditures and funds separately
      from other funding sources.

      OSKC stated it would use its bank account only for the OVW grant and
      that unallowable bank charges would be noted in the general ledger
      with documentation that they were not paid with grant funds. OSKC
      also stated that the acting director did not tell us that grant funds
      were commingled. However, on August 27, 2012, during the finance
      interview of OSKC’s acting director, she told OIG auditors that OSKC
      has one bank account for all funding sources. The acting director also
      stated that DOJ grant money was spent from that account on non-DOJ
      expenditures, and reimbursed to the grant later. OSKC’s director
      provided us with OSKC’s general ledger, which contained OSKC’s
      income and expenditures from all funding sources, and did not identify
      which funding source the line items should be allocated to.

      OSKC stated that its acting director had a lack of familiarity with OSKC
      operating procedures, which did not convey sound financial or internal
      control of grant funds. However, we believe she should have been
      familiar with OSKC’s operations.

      In its response, OSKC stated that we did not interview OSKC’s
      accountant. On July 31, 2012, OSKC’s acting director contacted us by
      phone and asked whether the accountant should be available for
      interviews. In response, we stated that we would like to interview the
      accountant if she had been involved in the grant accounting or
      bookkeeping functions. During the planning and fieldwork phases of
      this audit, we spoke with the accountant by phone and email, and
      learned the accountant had not been involved in OSKC’s accounting or
      bookkeeping functions; the accountant’s primary role in accounting for
      this grant was recent and was to help OSKC to complete its general
      ledger for the audit. Therefore, we determined there would be little
      benefit from interviewing the accountant.

      This recommendation can be closed when we receive evidence that
      OSKC has a policy in place to account for OVW grant expenditures and
      funds separately from other funding sources.


                                     71

2.	   Resolved. The OVW concurred with our recommendation to ensure
      that OSKC’s documented internal controls are in accordance with grant
      guidelines and are followed by OSKC management and personnel.
      OVW stated in its response that it will coordinate with OSKC to ensure
      that its documented internal controls are in accordance with grant
      guidelines and are followed by OSKC management and personnel.

      OSKC also stated that it agreed that OSKC management and personnel
      must follow documented internal controls and grant guidelines. OSKC
      stated that its acting director had attempted to create policies and
      procedures governing ATM cash transactions and cash payments for
      services, and OSKC would only process signed and documented
      timesheets. OSKC also stated that an accountant would be recruited
      to serve as board Treasurer and/or the acting director would attend
      QuickBooks or other financial management training. Regarding
      OSKC’s last statement, it is our opinion that a trained accountant
      serving as board Treasurer would provide OSKC with more effective
      internal controls; financial management training for the acting director
      might provide that individual with more knowledge of financial
      practices, but would not improve internal controls related to oversight.

      This recommendation can be closed when we receive evidence that
      OSKC’s documented internal controls are in accordance with grant
      guidelines and are followed by OSKC management and personnel.

3.	   Resolved. The OVW concurred with our recommendation to ensure
      that grant funds are only used for grant expenditures. The OVW
      stated in its response that it will coordinate with OSKC to develop
      policies and procedures to ensure that cumulative drawdowns do not
      exceed cumulative expenditures.

      OSKC agreed with our recommendation. OSKC also stated it has
      recently identified significant areas of financial policy to be revised,
      including authorization of all checks, ATM withdrawals, personnel
      timesheets and approvals, and contract approval and monitoring.
      These areas identified by OSKC are in agreement with our findings for
      Recommendation 2 above.

      OSKC stated that using grant funds only for grant expenditures has
      been OSKC’s policy, and that OSKC has used grant funds only for
      grant expenditures. However, as stated in Recommendation 1 above,
      on August 27, 2012, during the finance interview of OSKC’s acting
      director, the director told OIG auditors that OSKC has one bank
      account for all funding sources. The acting director stated that DOJ

                                      72

grant money was spent from that account on non-DOJ expenditures,
and reimbursed to the grant later.

In addition, OSKC stated that unintentional errors had been made in
the accounting process. We used the OJP Financial Guide and OVW
Financial Grant Management Guide as criteria for this audit; each
requires that grant recipients maintain accurate and supported
accounting records.

OSKC also stated that it did not agree that OVW funds were used for
personal use. However, OSKC’s general ledger contained a number of
unusual expenditures, which are noted in this report as indicators of
personal use. OSKC was unable to provide us with adequate
documentation or explanation for these expenditures. Further, 10 of
these expenditures totaling $441 were reimbursed to OSKC by the
former director on June 14, 2012, indicating personal use of grant
funds. As stated previously, OSKC provided explanations for two of
the expenditures noted in the report; however, OSKC did not provide
any documentation supporting its statements related to these
expenditures. OSKC stated it made sure that any unallowable costs
were reimbursed from other funding sources. However, OSKC did not
provide any documentation in support of this statement.

OSKC also stated it used spreadsheets to track its budget every
month, and kept all documentation of expenditures by month. As
noted in the Budget Management and Control section of this report, in
preparation for the audit OSKC officials worked with an accounting firm
to identify funding sources for individual transactions and in order to
provide us with a general ledger that identified transactions that were
funded by the OVW grant, funded by other funding sources, or
allocated in part to the OVW grant and in part to other funding
sources. From the amended general ledger provided by OSKC,
transactions that identified specific dollar amounts traceable to the
OVW grant totaled $508,517, of which only $486,633 could be traced
to budget categories. OSKC identified an additional $21,884 in
transactions as OVW grant-funded, but did not clearly indicate a
budget category, and $85,937 in transactions that were identified as
being partially funded by the OVW grant but did not identify the
amounts allocated the grant.

OSKC stated that in previous OVW grant cycles, accounting services
were an approved and allowable cost, but the OVW did not issue a
grant adjustment notice to OSKC after the OVW deleted accounting
services from OSKC’s budget. As stated previously, OSKC’s approved

                               73

      budget for the original grant included $7,000 for audit and accounting
      services and Supplement 01 and Supplement 02 each included $3,600
      for accounting costs. We did not identify any instances in which the
      OVW deleted items from OSKC’s budget. In fact, the budget for each
      phase of the grant was created by OSKC and submitted to the OVW as
      part of OSKC’s application for OVW funding.

      This recommendation can be closed when we receive evidence that
      OSKC grant funds are used only for grant expenditures.

4.	   Resolved. The OVW concurred with our recommendation to remedy
      the $16,514 in drawdowns in excess of expenditures. The OVW stated
      in its response that it will coordinate with OSKC to remedy the
      $16,514 in drawdowns in excess of expenditures.

      In its response on page 60 of this report, OSKC stated it does not
      agree that $16,514 was in excess of expenditures, because OSKC
      made drawdowns based on cost reimbursement, and OVW funds were
      not available for fiscal years 2011 through 2013 until February 2012.
      However, OSKC’s documentation did not support this statement. In
      our analysis in the Drawdowns section of this report, we noted that
      OSKC officials stated that OVW grant funds might be spent on non-
      grant expenditures and later reimbursed from other funding sources,
      which we concluded was a practice that could affect drawdown
      amounts. From the 55 drawdowns that we reviewed, we determined
      13 drawdowns cumulatively exceeded expenditures up to $17,502,
      and at the time of the most recent drawdown on March 6, 2012,
      OSKC’s cumulative drawdowns exceeded grant expenditures by
      $16,514.

      This recommendation can be closed when we receive evidence that the
      $16,514 in drawdowns in excess of expenditures has been
      appropriately remedied.

5.	   Resolved. The OVW concurred with our recommendation to ensure
      that drawdowns are accurately recorded. The OVW stated in its
      response that it will coordinate with OSKC to ensure that drawdowns
      are recorded accurately.

      In its response, OSKC stated that it does not agree that drawdowns
      were not accurately recorded. In our analysis in the Drawdowns
      section of this report, we identified issues with accuracy of drawdowns
      recorded by OSKC in its general ledger. One drawdown was not
      recorded in the general ledger, one was recorded as a year before it

                                     74

      occurred, and four drawdowns totaling $22,237 that occurred from
      August 1, 2011, to October 7, 2011, were not recorded in OSKC’s
      general ledger; however, the general ledger indicated seven OVW
      grant deposits totaling $19,686 during that period. None of those
      deposits matched any of the drawdowns and the total amounts
      differed by $1,672. According to the OJP Financial Guide and OVW
      Financial Grant Management Guide, drawdowns should be recorded in
      accounting records accurately and timely.

      OSKC stated that it submitted its quarterly financial reports to the
      OVW, and that the OVW did not notify OSKC of inaccurate reports.
      OSKC stated that it can work with the OVW to ensure that financial
      reports, drawdowns, and general ledger documentation are correct
      and free of inaccuracies.

      This recommendation can be closed when we receive evidence that
      OSKC has a procedure in place to accurately record drawdowns.

6.	   Resolved. The OVW concurred with our recommendation to remedy
      the $64,292 in unsupported personnel expenditures. The OVW stated
      in its response that it will coordinate with OSKC to remedy the
      $64,292 in unsupported personnel expenditures.

      In its response, OSKC stated it does not agree with $64,292 in
      unsupported personnel expenditures, because OSKC has implemented
      practices to ensure proper allocation of grant funds for salaries of
      employees who are funded by more than one source. OSKC also
      stated it has previously outlined that much of the unsupported
      personnel expenditures were minor accounting errors. OSKC’s
      response does not address the fact that we questioned these
      transactions due to lack of adequate supporting documentation; this
      finding was not related to allocation of grant funds or issues related to
      accounting errors.

      OSKC stated that its policies and procedures are being revised, to
      require employees to use an electronic system of tracking signatures,
      to obtain employee signatures prior to payment, and to require the
      signature of OSKC’s director and board treasurer for paychecks. OSKC
      also stated that OSKC’s Board of Directors will review personnel
      documentation and expenditures bi-monthly. For adequate internal
      controls, personnel documentation should be reviewed and approved
      prior to payment of personnel.



                                      75

      OSKC also stated that the acting director was only approved by OVW 3
      weeks prior to the audit and did not possess enough knowledge to
      properly submit documentation. Our recommendation was not related
      to submitting documentation, but to OSKC’s maintaining of grant
      documentation in accordance with the OJP Financial Guide and OVW
      Financial Grant Management Guide. Further, as stated previously,
      OSKC’s acting director began working at OSKC in October 2011.
      Although she was not appointed to acting director position until June
      2012, we believe she should have been familiar with OSKC operations.

      This recommendation can be closed when we receive evidence that the
      $64,292 in unsupported personnel expenditures has been
      appropriately remedied.

7.	   Resolved. The OVW concurred with our recommendation to remedy
      the $12,632 in unallowable personnel expenditures. The OVW stated
      in its response that it will coordinate with OSKC to remedy the
      $12,632 in unallowable personnel expenditures.

      In its response, OSKC stated that it does not agree with the $12,632
      in unallowable personnel expenditures. OSKC’s response only
      discussed allowability of personnel expenditures for the acting director.
      However, this audit report did not question personnel expenditures for
      the acting director; the $12,632 in unallowable personnel expenditures
      consisted of $6,696 paid for the unbudgeted education/outreach
      coordinator, $3,105 in wages and $1,088 in fringe benefits paid in four
      excess paychecks for the former director, $1,552 paid to the former
      director for two duplicated paychecks, and $192 paid with grant funds
      for a tax lien garnishment.

      OSKC also stated that the acting director had been “in a position to
      purchase and take over all aspects of the non-profit” from the former
      director, who is her sister. This was the first instance in which OSKC
      stated to us that the transition from one director to another involved a
      purchase of the non-profit organization, and we did not identify any
      related transactions in OSKC’s accounting records. While OSKC was
      primarily funded by the OVW grant, it appears that allowability of the
      purchase of the non-profit is outside the scope of our audit; we leave
      any related impact on the grant for the OVW to determine.

      This recommendation can be closed when we receive evidence that the
      $12,632 in unallowable personnel expenditures has been appropriately
      remedied.


                                      76

8.	   Resolved. The OVW concurred with our recommendation to remedy
      the $92,914 in unsupported direct cost expenditures. The OVW stated
      in its response that it will coordinate with OSKC to remedy the
      $92,914 in unsupported direct cost expenditures.

      In its response, OSKC stated that it does not agree with the $92,914
      in unsupported direct costs. OSKC stated that all expenses were
      directly related to the goals and objectives of the grant, and that OSKC
      provided us with supporting documentation “for some of the costs”
      during our fieldwork. While OSKC did provide us with documentation
      for some of the grant expenditures, we determined $92,914 in direct
      costs expenditures were not accurately supported, as stated in the
      Grant Expenditures section of this report.

      OSKC also stated that it would provide documentation to the OVW
      detailing all other questioned costs.

      This recommendation can be closed when we receive evidence that the
      $92,914 in unsupported direct cost expenditures has been
      appropriately remedied.

9.	   Resolved. The OVW concurred with our recommendation to remedy
      the $23,046 in unallowable direct cost expenditures. The OVW stated
      in its response that it will coordinate with OSKC to remedy the
      $23,046 in unallowable direct costs expenditures.

      In its response, OSKC stated that it does not agree with the $23,046
      in unallowable direct cost expenditures. OSKC stated that it followed
      the approved grant budget, and the OVW Financial Grant Management
      Guide allows a 10-percent budget modification without a GAN.
      However, while the OJP Financial Guide and OVW Financial Grant
      Management Guide allow grant recipients to transfer funds between
      approved budget categories up to 10 percent, they do not allow funds
      to be transferred into unapproved categories; therefore, expenditures
      in unapproved categories were questioned as unallowable.
      Unallowable expenditures also included expenditures for items that
      were not specifically identified in the program budgets that were
      submitted by OSKC and approved by the OVW, and items that we
      determined were outside the intent of victim assistance. As stated in
      the Grant Expenditures section of this report, unallowable questioned
      costs included payments for board stipends, and meeting refreshments
      and food. Unallowable victim assistance costs included payments that
      did not identify a domestic violence or sexual assault nexus, occurred
      during unbudgeted periods, were provided to OSKC employees or

                                     77

       board members or their children, were used to purchase gifts for
       inmates, paid for travel to visit an out-of-state inmate, were made to
       multiple members of the same family on the same day, and were
       made to an individual who stated they were not eligible for
       government assistance because they were not a U.S. citizen.

       This recommendation can be closed when we receive evidence that the
       $23,046 in unallowable direct cost expenditures has been
       appropriately remedied.

10.	   Resolved. The OVW concurred with our recommendation to ensure
       that a policy is in place for expenditures to be recorded completely,
       accurately, and with supporting documentation. The OVW stated in its
       response that it will coordinate with OSKC to ensure that a policy is in
       place for expenditures to be recorded completely, accurately, and with
       supporting documentation.

       In its response, OSKC stated that it does not agree that expenditures
       were not recorded completely, accurately and with supporting
       documentation. As stated in the Grant Expenditures section of this
       report, we found that grant expenditures were not recorded
       completely, accurately, and with adequate supporting documentation
       in accordance with the OJP Financial Guide and OVW Financial Grant
       Management Guide.

       OSKC again noted that the acting director lacked the experience to
       effectively demonstrate that OSKC had policies and procedures in
       place to accurately account for all grant expenditures. However, as
       stated previously, the acting director has been working for OSKC since
       October 2011 and should have been familiar with OSKC operations.
       Further, OSKC did not accurately account for expenditures prior to the
       appointment of the acting director.

       OSKC also stated it has financial management policies in place and
       uses electronic records for all expenses; previous to the electronic
       records, OSKC used paper recordkeeping. However, this statement
       was not supported and in its responses to Recommendations 1, 2, and
       3, OSKC stated it was creating and changing financial management
       policies in response to our audit.

       This recommendation can be closed when we receive evidence that
       OSKC has a policy in place for expenditures to be recorded completely,
       accurately, and with supporting documentation.


                                      78

11.	   Resolved. The OVW concurred with our recommendation to ensure
       that a policy is in place to fully document and effectively monitor
       contractors. The OVW stated in its response that it will coordinate
       with OSKC to ensure that a policy is in place to fully document and
       effectively monitor contractors.

       In its response, OSKC stated it has a policy to fully document and
       effectively monitor contractors. OSKC stated that all contracts must
       be approved by the Board of Directors and that all contractors must
       submit a monthly report that includes number of clients, services
       provided, client demographics, and an invoice of individual client
       services. As stated in the Grant Expenditures section of this report,
       we noted inconsistencies with OSKC’s documentation of contractors,
       including OSKC staff wages that were recorded as contractor
       expenses, payments to eight contractors for which contracts that could
       not be provided, and two contracts that were not signed.

       OSKC also stated that OSKC contractors were approved by the OVW,
       because the contractors were named in the grant budget. We note
       that acceptance of a grant budget by OVW does not mean that the
       OVW has approved the specific contractors; the grant budget is
       intended to allow for scope of work and budgeted dollar amount. The
       OJP Financial Guide and OVW Financial Grant Management Guide
       require competitive procurement practices prior to purchases with
       grant funds, including contractors. Additionally, both guides required
       that grant recipients confirm the eligibility of contractors using the
       Excluded Parties List System (EPLS). At the time of our fieldwork,
       OSKC was not aware of the existence of EPLS. We emailed OSKC on
       September 26, 2012, with the purpose of the EPLS and location of its
       website.

       OSKC also stated it maintained records and correspondence with
       contractors to verify that grant goals and objectives were met. As
       stated in the Grant Reporting section of this report, OSKC records
       included reports from contractors. However, OSKC’s documentation
       did not support that contractors were being monitored. For example,
       reports for one contractor contained duplicated information for 3
       consecutive months.

       This recommendation can be closed when we receive evidence that
       OSKC has a policy in place to fully document and effectively monitor
       contractors.



                                      79

12.	   Resolved. The OVW concurred with our recommendation to ensure
       that a policy is in place to adequately track grant expenditures to the
       approved budget. The OVW stated in its response that it will
       coordinate with OSKC to ensure that a policy is in place to adequately
       track grant expenditures to the approved budget.

       In its response, OSKC stated that policies and procedures have been in
       place, as evidenced by OSKC’s Financial Management Policy. OSKC
       stated it “actively documents all expenses and works diligently to
       properly authorize, record expenses, document in accounting records,
       and archive all receipts/invoices.” However, in its responses to
       Recommendations 1, 2, and 3, OSKC stated it was creating and
       changing financial management policies in response to our audit.

       OSKC stated that its general ledger has been updated by an
       accounting firm, and it continues to fix errors within the general
       ledger. OSKC also stated that while waiting for OVW’s budget
       approval, “OSKC was documenting and recording potential allowable
       costs to the DOJ grant during this time for reimbursement.” However,
       those statements were not supported and neither statement addressed
       OSKC’s monitoring of expenditures to the approved budget.

       This recommendation can be closed when we receive evidence that
       OSKC has a policy in place to adequately track grant expenditures to
       the approved budget.

13.	   Resolved. The OVW concurred with our recommendation to ensure
       that FFRs are submitted timely and accurately. The OVW stated in its
       response that it will coordinate with OSKC to ensure that FFRs are
       submitted timely and accurately.

       In its response, OSKC stated that it agreed with our recommendation
       to ensure that all FFRs are submitted timely and accurately. However,
       OSKC stated that it was not aware that FFRs were inaccurate, because
       OVW had approved each FFR submitted by OSKC and had not notified
       OSKC that the FFRs were inaccurate. OSKC stated that the OVW’s lack
       of communication with OSKC about inaccurate FFRs “gave OSKC the
       false impression that the FFRs . . . were free from any discrepancies.”
       As we stated previously, the OVW’s acceptance of grantee reports is
       generally based upon the fact that the reports were submitted and
       contained information in the required fields. However, the OVW
       cannot verify the accuracy of report submitted by grantees because
       the OVW does not require them to submit documentation supporting
       the information contained in the reports submitted.

                                      80

       This recommendation can be closed when we receive evidence that
       OSKC has procedures in place to adequately track grant expenditures
       to the approved budget.

14.	   Resolved. The OVW concurred with our recommendation to ensure
       that Progress Reports are submitted timely. The OVW stated in its
       response that it will coordinate with OSKC to ensure that progress
       reports are submitted timely.

       In its response, OSKC stated that it agreed with our recommendation
       to ensure that all progress reports are submitted timely. OSKC stated
       it will use time management tools to ensure that grant requirements
       are met, and it will gather information using a database.

       This recommendation can be closed when we receive evidence that
       OSKC has procedures in place to ensure that Progress Reports are
       submitted timely.

15.	   Resolved. The OVW concurred with our recommendation to ensure
       that Progress Reports are supported by verifiable source
       documentation. The OVW stated in its response that it will coordinate
       with OSKC to ensure that Progress Reports are supported by verifiable
       source documentation.

       OSKC did not provide a response to this recommendation.

       This recommendation can be closed when we receive evidence that
       OSKC has procedures in place to ensure that Progress Reports are
       supported by verifiable source documentation.

16.	   Resolved. The OVW concurred with our recommendation to ensure
       that OSKC has a policy for continuity of operations and organizational
       sustainability. The OVW stated in its response that it will coordinate
       with OSKC to ensure that they have a policy for continuity of
       operations and organizational sustainability.

       OSKC did not provide a response to this recommendation.

       This recommendation can be closed when we receive evidence that
       OSKC has a policy in place for continuity of operations and
       organizational sustainability.



                                      81

17.	   Resolved. The OVW concurred with our recommendation to ensure
       that OSKC has a policy to adequately document grant program
       performance metrics. OVW stated in its response that it will
       coordinate with OSKC to ensure that they have a policy to adequately
       document grant program performance metrics.

       OSKC did not provide a response to this recommendation.

       This recommendation can be closed when we receive evidence that
       OSKC has a policy in place to adequately document grant program
       performance metrics.

18.	   Resolved. The OVW concurred with our recommendation to ensure
       that OSKC meets grant performance goals and objectives. The OVW
       stated in its response that it will coordinate with OSKC to ensure that
       they meet grant performance goals and objectives.

       OSKC did not provide a response to this recommendation.

       This recommendation can be closed when we receive evidence that
       OSKC has procedures to meet grant performance goals and objectives.

19.	   Resolved. The OVW concurred with our recommendation to ensure
       that OSKC has a policy for following grant special conditions. The
       OVW stated in its response that it will coordinate with OSKC to ensure
       that they have a policy for following grant special conditions.

       OSKC did not provide a response to this recommendation.

       This recommendation can be closed when we receive evidence that
       OSKC has a policy in place for following grant special conditions.




                                       82

